U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           INTERNATIONAL TRADE
                ADMINISTRATION

      CS China Generally Performs Well
             But Opportunities Exist for
      Commerce to Better Coordinate Its
             Multiple China Operations
              Final Inspection Report No. IPE-17546/March 2006


                            PUBLIC
                            RELEASE

               Office of Inspections and Program Evaluations
                                          8fg\             UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                          a@j *mra
                                                           Wash~ngton.0 C 20230

March 3 1,2006

MEMORANDUM FOR:               Carlos M. Gutierrez
                              Secretary
                              David A. Sarnpson

FROM:
SUBJECT:
                              Deputy secretary
                              Johnnie E. F
                              Final OIG Report
                                               r   a   z     i    w     &+         U
                              CS China                           Well, But Opportunities Exist for
                                                                  its Multiple China Operations
                              (IPE-17546)
As follow-up to our March 3,2006, draft report, attached is the final report on our inspection of
Commerce's operations in China. We thank you for your comments on our draft report. We also
received comments from the Deputy Under Secretary for International Trade and the Director of the
Office of Enforcement at the U.S. Patent and Trademark Office. We have considered these comments
in preparing our final report and have attached them in their entirety as appendices to the report.
Our inspection focused on the management of the Commercial Service's post in China, including its
programmatic, financial, and administrative operations, but we also looked at other Commerce
operations and interests in China. We are pleased to report that CS Chma and the other Commerce
organizations operating there are aggressively pursuing their missions and are generally collaborating
well with their trade partners, other components of the U.S. mission, and other U.S. government
agencies. At the same time, we also identified a number of issues, challenges, and-more
importantly-opportunities that warrant your attention and that of your senior managers.
As you are aware, China is not only Commerce's largest overseas mission, it is also the only overseas
post with permanently assigned staff from three separate Commerce bureaus and three organizations
within the International Trade Administration. However, the management structure of Commerce's
China mission was designed for a much smaller and more limited overseas operation. This structure
may not be the most effective to manage future growth in Commerce's China operations. Additionally,
to a large extent, the Commerce bureaus operating in China are independently pursuing their own
missions and responsibilities. Commerce must speak as one voice on complex policy issues or it will
not be able to best lead the cross-organizational efforts that are needed to make progress on the
Department's goals in China.
We are pleased to note that Commerce officials have already taken and are planning to take actions to
address most of our recommendations. We commend the aggressive steps that you and others are
taking to strengthen the Department's effectiveness at managing future growth in Commerce's China
operations. Most notably, this includes your decision to have the Deputy Secretary chair a quarterly
meeting of principals from Commerce bureaus with operations or interests in China.
We thank you and other personnel throughout the Department, particularly the CS
China staff, for the assistance and the courtesies extended to us during our review.
Attachment
                                        bPCg\          UNITED STATES DEPARTMENT OF COMMERCE
                                                       The Inspector General
                                                       Washmgtm. 0.C.20230
                                            *4m   of
MAR 3 1 2006
MEMORANDUM FOR:               Franklin L. Lavin
                              Under Secretary for International Trade

                              Michelle O'Neill
                              Deputy Under Secretary for International Trade

                              Israel Hernandez
                              Assistant Secretary for Trade Promotion and Director General of
                                the United States & Foreign Commercial Service

FROM:                         Johnnie E. Frazi

SUBJECT:                      Final OIG Rep
                              CS China Gene
                              Commerce to Bett            'nate its Multiple China Operations
                              (IPE-I 7546)

As follow-up to our March 3,2006, draft report, attached is the final report on our inspection of
Commerce's operations in China. We thank you for ITA's comments on our draft report. We
also received comments from the Secretary and the Director of the Office of Enforcement at the
U.S. Patent and Trademark Office. We have considered these comments in preparing our final
report and have attached them in their entirety as appendices to the report.

Our inspection focused on the management CS China, as well as the post's programmatic,
financial, and administrative operations. We are pleased to report that CS China generally
performs well in providing export assistance to U.S. companies and collaborates well with its
trade partners, the embassy, other Commerce components, and other U.S. government agencies.
China is not only Commerce's largest overseas mission, it is also the only overseas post with
permanently assigned staff from three separate Commerce bureaus and three organizations
within the International Trade Administration (ITA). While all of these resources bring great
opportunity for Commerce to make a difference in China, our report highlights many of the
issues, challenges, and-more importantly-opportunities that warrant management attention to
ensure the Department's overall success in China. In particular, we noted the cross-
organizational efforts that are needed to make progress on the Department's goals in China.
Additionally, our report comments on the American Trading Center initiative, the commercial
center in Shanghai, CS' products and services, human resource issues, challenges in handling the
growing number of visitors to the post, and specific financial and administrative operations.
Finally, our report discusses the on-going problems with CS' key performance metric-export
successes.

We are pleased to note that ITA has already taken or is planning to take actions to address most
of our recommendations. We request that you provide us with an action plan addressing the
status of action on the recommendations in ourreport within 60 calendardays.
We thank you for the assistance and courtesies extended to us by personnel in ITA headquarters
and CS China during our review. If you would like to discuss this report or the requested action
plan, please call me at (202) 482-4661, or Jill Gross, Assistant Inspector General for Inspections
and Program Evaluations, at (202) 482-2754.

Attachment
                                           .*" "h
                                                   3    UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D C 20230
MAR 3 1 2006
MEMORANDUM FOR:               Jon Dudas
                              Under Secretarv of Commerce for Intellectual Prooertv and Director
                                                                               A   .


                                  of the United&tes Patent and Trademark Office

FROM:

SUBJECT:
                                                            Well, But Oppor~unitiesExistfor
                                                             its Multiple China Operations JIPE-
                              17536)

As follow-up to our March 3,2006, draft report, attached is the final report on our inspection of
Commerce's operations in China. We thank USPTO for its prompt and thoughtful comments to our
draft report. We also received comments from the Secretary and the Deputy Under Secretary for
International Trade. We have considered these comments in preparing our final report and have
attached them in their entirety as appendices to the report.
Our inspection focused on the management of the Commercial Service's post in China, including its
programmatic. financial, and administrative operations. but we also reviewed other Commerce
operations and interests in China, including those of USPTO. We are pleased to report that CS
China generally performs well in providing export assistance to U.S. companies and collaborates
well with its trade partners, the embassy, other Commerce components, and other U.S. government
agencies. China is not only Commerce's largest overseas mission, it is also the only overseas post
with permanently assigned staff from three separate Commerce bureaus and three organizations
within the International Trade Administration (ITA). While all of these resources bring great
opportunity for Commerce to make a difference in China, our report highlights many of the issues,
challenges, and-more importantly-opportunities that warrant management attention to ensure the
Department's overall success in China. In particular, we noted the cross-organizational efforts that
are needed to make progress on the Department's goals in China.
We are pleased to note that your agency, as well as the Secretary, ITA, and its Commercial Service,
have already taken or are planning to take actions to address most of our recommendations. We
request that you provide us with an action plan within 60 days to update us on the status of action
you have taken to address the recommendation related to intellectual property training
(Recommendation #28).
We thank you for the assistance and courtesies that you and your staff extended to us during our
review. If you have any questions or comments, please call me at (202) 482-4661, or Jill Gross,
Assistant Inspector General for Inspections and Program Evaluations, at (202) 482-2754.
Attachment

CC: Robert L. Stoll
                                                                                                OF COMMERCE


  MAR 3 1 2006
MEMORANDUM FOR:              William Jeffrey
                             Director, National Institute of Standards and Technology

FROM:                        Johnnie E. Frazi

SUBJECT:                     Final OIG Rep
                             CS China Gene
                             Commerce to ~ e t f l ~ o o r d i n aits
                                                                   i e~ u l t i p i China
                                                                                    l     operations (ZPE-
                             17546)

As follow-up to our March 3,2006, draft report, attached is the final report on our inspection of
Commerce's operations in China. We received comments to our draft report from the Secretary, the
Deputy Under Secretary for International Trade, and the Director of the Office of Enforcement at
the U.S. Patent and Trademark Office. We have considered these comments in preparing our final
report and have attached them in their entirety as appendices to the report.

Our inspection focused on the management of the Commercial Service's post in China, including its
programmatic, financial, and administrative operations. We are pleased to report that CS China
generally performs well in providing export assistance to U.S. companies and collaborates well with
its trade partners, the embassy, other Commerce components, and other U.S. government agencies.
China is not only Commerce's largest overseas mission, it is also the only overseas post with
permanently assigned staff from three separate Commerce bureaus and three organizations within
the International Trade Administration (ITA). While all of these resources bring great opportunity
for Commerce to make a difference in China, our report highlights many of the issues, challenges,
and-more importantly-opportunities that warrant management attention to ensure the
Department's overall success in China. In particular, we noted the cross-organizational efforts that
are needed to make progress on the Department's goals in China.

We are pleased to note that the Secretary, ITA, the Commercial Service, and U.S. Patent and
Trademark Office have already taken or are planning to take actions to address most of our
recommendations. We request that you provide us with an action plan within 60 days to update us
on the status of action you have taken to address the recommendation related to standards training
(Recommendation #28).

We thank the personnel at NIST for the assistance and the courtesies they extended to us during our
review. If you have any questions or comments, please call me at (202) 482-4661, or Jill Gross,
Assistant Inspector General for Inspections and Program Evaluations, at (202) 482-2754.

Attachment
U.S. Department of Commerce                                                                                  Final Report IPE-17546 

Office of Inspector General                                                                                             March 2006 



EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND .............................................................................................................................1 

OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................9 

OBSERVATIONS AND CONCLUSIONS ..................................................................................13 

I. 	      Commerce’s China Mission Faces Unique Management Challenges and 

          Opportunities..................................................................................................................... 13 

          A. 	 A team effort is essential to the success of Commerce’s China programs ............. 13 

          B. 	 Commerce should clarify its management structure in China ................................ 16 

          C. 	 The Commercial Service faces challenges in managing its peripheral offices ....... 17 

          D. 	 Continuity of expertise and staff in China has been problematic............................ 19 

II. 	     The American Trading Center Program is New and Largely Untested............................ 23 

          A. 	 CS needs to be actively involved in the provision of ATC services to ensure 

               the program’s success.............................................................................................. 23 

          B. 	 Refund procedures for dissatisfied ATC customers are unclear ............................. 27 

          C. 	 The roles of the ATC trade show staff in Shanghai and Guangzhou are 

               unclear ..................................................................................................................... 28 

III.	     CS Should Evaluate the Future Direction of the Commercial Center Program ............... 31 

          A. 	 CS anticipated that cooperation between CS offices and commercial center 

               partners would create synergies .............................................................................. 31 

          B. 	 The Shanghai Commercial Center has brought trade partners to China but 

               has not created many synergies............................................................................... 32 

          C. 	 CS should consider the future direction of the commercial center program........... 33 

IV. 	     Export Success Reporting, CS’ Critical Performance Metric, Continues to be a 

          Recurring Problem ............................................................................................................ 37

          A. 	 CS China has reported significant increases in its export success stories over 

               the last two years ..................................................................................................... 37 

          B. 	 CS China, with general exception of CS Shanghai, is not following CS 

               guidelines for verifying export successes................................................................ 38 

          C. 	 CS guidelines and export success reporting have been a recurring issue in

               OIG post inspections ............................................................................................... 40 

          D. 	 OIG sample shows nearly 44 percent of CS China’s export success stories 

               were not verifiable................................................................................................... 41 

          E. 	     Discrepancies in CS China’s reported export success dollar values reveal 

                   little or no client verification................................................................................... 44 

          F. 	     CS’ quality control procedures do not adequately assure veracity of reported 

                   performance results ................................................................................................. 45 

U.S. Department of Commerce                                                                                  Final Report IPE-17546 

Office of Inspector General                                                                                             March 2006 


V. 	      CS China’s Products and Services Satisfy Most of Its Clients......................................... 49 

          A. 	 Customer surveys show satisfaction with most of CS China’s products, but 

               some services need management attention.............................................................. 49 

          B. 	 CS China cannot meet ITA’s demand for market research..................................... 51 

          C. 	 Other CS materials for prospective U.S. exporters to China are readily 

               available .................................................................................................................. 52 

VI. 	     Human Resource Issues Should Be Addressed to Maximize Commerce’s 

          Effectiveness in China ...................................................................................................... 55 

          A. 	 Commerce’s foreign service officers need language and industry sector 

               training .................................................................................................................... 55 

          B. 	 FSN staff require training in English writing, industry sectors, and U.S. 

               business practices .................................................................................................... 57 

          C. 	 Computer-aided job evaluation should result in some FSN grade increases .......... 58 

          D. 	 The second officer position in Guangzhou needs to be addressed.......................... 58 

VII. 	 CS China is Challenged by the Growing Number of Visitors .......................................... 63 

VIII.	 CS China is Not Using the Established Process to Hire Temporary Workers.................. 67 

IX. 	     Post Financial and Administrative Operations Are Generally Well Managed but 

          Could Be Improved........................................................................................................... 71 

          A. 	 Procedures for petty cash and collections are not followed .................................... 71 

          B. 	 Officers should sign and date critical documents, customer agreements, time

               and attendance, and performance evaluations......................................................... 73 

          C. 	 Inventory records need improvement and excess equipment should be 

               surplused.................................................................................................................. 74 

          D. 	 The commercial libraries in Shanghai and Guangzhou are not being fully 

               utilized..................................................................................................................... 74

SUMMARY OF RECOMMENDATIONS ...................................................................................77 

APPENDICES .......................................................................................................................... A-1 

          Appendix A: Acronyms and Abbreviations.................................................................... A-1 

          Appendix B: Secretary’s Response to Draft Report ........................................................B-1 

          Appendix C: ITA’s Response to Draft Report.................................................................C-1 

          Appendix D: USPTO’s Response to Draft Report ......................................................... D-1 

          Appendix E: Briefings for Commerce’s Travelers to China (FOR OFFICIAL USE 

              ONLY) To be provided under separate cover........................................................E-1 

          Appendix F: Clearance Process for Commerce’s Staff Assigned to China 

              (SECRET/ NOFORN) To be provided under separate cover ................................ F-1 

U.S. Department of Commerce                                                            Final Report IPE-17546 

Office of Inspector General                                                                       March 2006 


                                        EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major role in
leading the federal government’s efforts to increase U.S. exports. ITA’s U.S. Commercial
Service (CS),1 as one of the nation’s most visible export promotion agencies, works closely with
the American business community as well as federal, state, and local trade partners to promote
companies’ awareness of export opportunities and increase U.S. sales abroad. To this end, CS
operates offices in 80 countries and 108 domestic export assistance centers.

The Office of Inspector General conducted an inspection of Commercial Service’s China post,
which operates five offices in Beijing, Shanghai, Guangzhou, Chengdu, and Shenyang, from
September 9 to September 30, 2005. We focused primarily on the post’s management, program
operations, and financial and administrative practices. During our inspection, we also met with
representatives of other Commerce organizations in China, including officers representing the
Bureau of Industry and Security (BIS), Market Access and Compliance (MAC), Import
Administration (IA), and the U.S. Patent and Trademark Office (USPTO). In addition, we met
with other U.S. government officials with trade-related operations in China.

Overall, we found that the post is generally doing a good job of providing export assistance to
U.S. companies and collaborates well with its trade partners, other components of the U.S.
mission, the Department, and other government agencies. However, we also identified a number
of issues, challenges, and opportunities that warrant the attention of senior CS and departmental
managers. Our specific observations are as follows:

Commerce’s China Mission Faces Unique Management Challenges and Opportunities.
China is not only CS’ largest overseas
mission, it is also the only overseas post COMMERCE HAS A CRITICAL MISSION AND IMPORTANT
with permanently assigned staff from       RESPONSIBILITIES TO FULFILL IN MEETING THE
                                           NATION’S COMMERCIAL CHALLENGES IN CHINA
three separate Commerce bureaus (ITA,
BIS, and USPTO). Moreover, ITA, for         • Promoting Exports of U.S. Goods and Services
its part, has representatives from three    • Protecting Intellectual Property Rights
of its units (CS, MAC, and IA) in China.    • Advocating and Enforcing Export Controls
And, at the time of our review, the         • Promoting U.S. Industry Standards
                                            • Ensuring Compliance with Trade Agreements
Department also had a special counsel       • Gaining Greater Access to China’s Market
in China who represented the Secretary      • Supporting U.S. Foreign Policy Initiatives
of Commerce.2




1
 The U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).
2
  The Secretary of Commerce is permitted to make one political appointment to CS. The special counsel was in
China at the time of our visit, but resigned his position in October 2005. The Secretary has not yet named a
replacement, nor has he indicated whether the replacement will go to China or another post of the Secretary’s
choosing.




                                                        i
U.S. Department of Commerce                                                            Final Report IPE-17546 

Office of Inspector General                                                                       March 2006 



    Figure 1. Commerce’s China Mission

    CHINA-BASED REPRESENTATIVES

                     CS Officers        MAC Officers             IA Officers
                      and Staff          and Staff                and Staff

                         USPTO Officers           BIS Officers         Secretary of Commerce’s
                           and Staff               and Staff               Special Counsel


    WASHINGTON-BASED UNITS ALSO SUPPORT COMMERCE’S CHINA ACTIVITIES

       The President’s     China Business      ITA Advocacy                            National Institute of
                                                                  MAC          IA
       Coordinator for   Information Center       Center                            Standards and Technology
         Intellectual
          Property          U.S. Export       ITA Manufacturing           CS Office of
        Enforcement                                                                            USPTO     BIS
                         Assistance Centers      and Services       International Operations


    Source: OIG


The scope of Commerce’s commitment to its China mission is a reflection of both the growing
economic and political importance of China and the United States’ growing trade deficit with
China, which reached about $193.9 billion in fiscal year 2005.3 Given the post’s extremely high
workload, brought on in part by a constant stream of visitors, the Ambassador has welcomed the
additional staff that Commerce has assigned to the post. Many of these additional staff have
varied agendas and slightly different goals than CS China, as well as different management
reporting chains. Thus, the increasing number of Commerce organizations represented in China
amplifies the need for effective cooperation and coordination among these organizations. As
Commerce confronts its major challenges in China, such as promoting U.S. exports, protecting
intellectual property rights (IPR), improving market access, enforcing export controls, and
promoting U.S. industry standards, it must be able to depend on a seamless team effort, both
from its staff on the ground in China and its various headquarters units with interests or
responsibilities in China. Policy disagreements, confusing lines of authority, logistical issues, or
conflicting objectives would hinder the effectiveness of Commerce’s efforts in China. To deal
with this challenge, the Department must develop appropriate management processes to ensure
that all Commerce representatives and organizations cooperate effectively to better meet the
opportunities for progress on the China-related issues facing the Department.

At the same time, CS managers in Beijing face challenges in running such a large and
geographically diverse post. We found strong management in the Shanghai and Guangzhou
offices, but we also found that CS faces significant challenges in effectively managing and
staffing its smaller Chengdu and Shenyang offices. We also found lengthy vacancies in other


3
 U.S. Census Bureau, Foreign Trade Statistics, Trade in Goods (Imports, Exports and Trade Balance) with China,
www.census.gov/foreign-trade/balance/c5700.html, February 13, 2006.



                                                       ii
U.S. Department of Commerce                                                  Final Report IPE-17546 

Office of Inspector General                                                             March 2006 


Commerce positions in China that indicate the need for the Department to improve human
resource planning for its positions in China (see page 13).

The American Trading Center Program is New and Largely Untested. CS is currently
implementing its American Trading Center (ATC) initiative in 14 major commercial centers
throughout China. At the time of our visit, the most progress on this initiative had been made in
the Shanghai consular district, while many of the other offices were not yet ready to provide
services to American companies. Work remains to build an effective and complete program.
We found that CS will need to closely monitor the efforts of its partner for the ATC program, the
quasi-state Chinese Council for the Promotion of International Trade (CCPIT), to ensure that the
local CCPIT sub-councils provide quality services to U.S. companies. While CCPIT has
extensive local market knowledge, CS needs to understand that the promotion of imports from
the U.S. is not one of the organization’s major objectives given its primary goal of promoting
foreign investment in China. Given the limited training that CS provided to CCPIT staff (only a
two-day orientation) and CCPIT’s inexperience in promoting foreign imports, CS needs to be
actively involved in and oversee the services provided through the ATC network to ensure their
quality and timeliness. Additionally, in the Shanghai and Guangzhou offices, we noted that CS
has not adequately defined the role of the new CS staff who were hired to support CS China’s
trade show initiative, an effort which CS has associated with the ATC program. This confusion
has led to unnecessary staff frustration and the inefficient use of staff resources (see page 23).

CS Should Evaluate the Future Direction of the Commercial Center Program. The
commercial center in Shanghai opened in July 1996 and was one of four commercial centers
created under the Jobs Through Exports Act of 1992.4 According to the Act, the purpose of the
commercial centers is to provide additional resources for the promotion of U.S. exports by
providing expanded business facilities and support services at key posts. CS expanded the
commercial center concept to include collocation of CS personnel with federal, state and private
sector trade partners in the centers. The Shanghai Commercial Center currently has six trade
partners collocated in its facilities, including three states, one city, and two trade associations.
We found, however, that the benefits of the commercial center are not being fully realized. CS
Shanghai is not working closely with most of its collocated partners and has not integrated them
adequately into the post’s operations. Additionally, CS has done little to promote and market the
commercial center and its trade partners. Finally, because two out of the original four centers
have closed and the remaining centers may be affected by planned CS office moves into U.S.
consulate compounds in the future, CS management in headquarters also needs to determine its
long-term strategy for the entire commercial center program (see page 31).

Export Success Reporting, CS’ Critical Performance Measure, Continues to be a
Recurring Problem. CS’ primary performance goal is to “expand [the] U.S. exporter base.”
Measuring progress toward that goal relies on verified numbers of export transactions facilitated
by CS among new and existing U.S. exporters. We found CS China, with the exception of its
Shanghai office, has few verification procedures in place to support its claimed performance
results, which show yearly increases. Our analysis of 126 export success stories for CS China
shows that approximately 44 percent were not adequately supported by written documentation.
Documentation and success story verification issues are not new. This is a recurring problem

4
    15 USC § 4723a.



                                                 iii
U.S. Department of Commerce                                                      Final Report IPE-17546 

Office of Inspector General                                                                 March 2006 


that the OIG has noted in its last 3 CS overseas post inspections—CS Turkey,5 CS Greece,6 and
CS India7—and its review of the Pacific Northwest USEAC network.8 Before performance
statistics are presented to Congress and OMB, CS must confirm they are reliable and meet the
reporting guidelines outlined in the CS Operations Manual. However, the guidelines in the
manual are not specific enough to provide adequate guidance on maintaining supporting
documentation of the export success stories prepared by CS trade specialists (see page 37).

CS China’s Products and Services Satisfy Most of Its Clients. CS has multiple products and
services to help U.S. exporters reach the global market, including customized market research,
trade events, international partner matching, and one-on-one counseling. During fiscal years
2004 and 2005, CS China provided clients more than 600 products and services. We reviewed
customer surveys performed by both OIG and CS’ customer relationship management (CRM)
unit to determine if these efforts met the needs of U.S. exporters. In addition, we reviewed CS
China’s market research reports (planned and unplanned) to gauge the quality of the post’s
written products. We also reviewed the marketing materials CS currently uses to reach
prospective U.S. exporters to China and expand its potential client base. We found these efforts
are satisfying most of CS’ clients but it should continue to monitor the quality of its products and
services (see page 49).

Human Resources Issues Must Be Addressed to Ensure Commerce Can Maximize Its
Effectiveness in China. The post’s success relies on its human resource capabilities and its
ability to effectively maximize these resources and adequately plan for the future of Commerce
operations in China. Adequate language training for Commerce’s foreign service officers and
foreign service nationals (FSNs) is critical to effective communication at the post and with U.S.
exporters. Similarly, the complex nature of business in China requires in depth knowledge of
industry sectors in order to effectively service the department’s customers (see page 55).

CS China is Challenged by The Growing Number of Visitors. China’s growing economy and
its expanding trade with the United States prompts many congressional staff, state governors,
mayors, and other high-ranking government officials to travel to China on trade missions or
commercial delegations. In 2005, CS China co-hosted 219 major events, including more than 50
trade missions. CS officers and staff are nearly always required to provide logistical support for
these events, which distracts from CS’ core products and services. CS does a tremendous job of
accommodating its visitors and organizing events while still accomplishing its core export-
promotion mission. But several improvements could help CS manage visitors and events more
efficiently, such as evaluating its logistical support for major events and visits to ensure the most
efficient use of resources, reporting events to CS headquarters through CS’ eMenu, and
recovering all costs it incurs in supporting certified trade missions (see page 63).



5
  The Commercial Service Needs to Improve Management of its Operations in Turkey, March 2003, IPE-15370.
6
  Generally Sound Operations at Commercial Service Greece Are Compromised by Key Weaknesses, September
2003, IPE-15804.
7
  Commercial Service India: Challenges Remain for Management of a Large and Economically Diverse Post,
September 2004, IPE-16808.
8
  Pacific Northwest USEAC Network Generally Operates Well, but Export Success Reports Need More Management
Scrutiny, March 2004, IPE-16507.



                                                    iv
U.S. Department of Commerce                                                Final Report IPE-17546 

Office of Inspector General                                                           March 2006 


CS China is Not Using the Established Hiring Process to Hire Temporary Workers. CS
China, particularly in Beijing and Guangzhou, frequently uses temporary workers to help with
the post’s special events, such as single company promotions and trade delegations. These
workers typically work for a short period of time—a few days to a few weeks—and perform
such tasks as recruiting attendees, issuing invitations, setting up appointments, arranging
receptions, and managing RSVP lists. In some cases, temporary workers are used to update CS’
databases and assist permanent staff with general administrative support, such as answering
phones, making copies, and maintaining files. Certainly a post as busy as CS China will
occasionally need additional help to meet deadlines and ensure the success of its events. But the
process being used to employ temporary workers is problematic because proper security and
human resources procedures are generally not being followed. In the future, to better protect
both CS and the temporary workers themselves, CS China should use the established hiring
process, in particular the Personal Services Agreement (PSA)-Temporary authority, for hiring
temporary workers (see page 67).

Financial and Administrative Management of the Post Is Largely Positive, But Can Be
Improved. CS China’s financial and administrative operations are generally managed well, but
there are several categories in which management and oversight should be improved. The staff
is experienced and conscientious and has done a good job of keeping up with the increasing
workload. In addition, CS China hired an administrative manager in Beijing in July 2005 who is
improving coordination and management of financial and administrative activities at all CS
China posts. However, procedures for petty cash and collections are not always followed, and
CS officers do not properly authorize all critical financial and administrative documents. We
also found that the post’s inventory records were not adequately managed and reconciled and the
commercial libraries in Shanghai and Guangzhou are not being fully utilized. In addition, we
reviewed the physical security of each office and found no security vulnerabilities. The Regional
Security Officer (RSO) in Beijing confirmed that four of the five CS offices in China meet the
physical security standards set by the Overseas Security Policy Board. Security upgrades to the
Shanghai office were underway as part of an office renovation at the time of our visit in
September 2005. The RSO in Shanghai was monitoring the project and assured us that the office
would meet all physical security requirements when the construction is completed (see page 71).

This report has two limited distribution appendices that contain sensitive or classified
information that will be provided under separate cover. Appendix E is a separate memorandum
report on briefings for Commerce’s official travelers to China. Appendix E is For Official Use
Only. Appendix F discusses the clearance process for Commerce’s staff assigned to China; this
appendix contains national security information and is classified SECRET/NOFORN.

On page 77, we list a summary of the recommendations to address our concerns.



In responding to our draft report, the Secretary of Commerce noted that the Department has
made a substantial commitment of resources to address the growing economic and political
importance of China. Specifically, he stated that the Department has expanded its presence in
China and worked to ensure that U.S. companies are able to fully leverage export opportunities
and have access to the China market. The Secretary also stated that he appreciated our report’s


                                                v
U.S. Department of Commerce                                                 Final Report IPE-17546 

Office of Inspector General                                                            March 2006 


emphasis on the need to build on and improve the coordination and cooperation between the
staffs of the various bureaus in order to ensure the success of the Department’s programs in
China. To address this issue, the Secretary has asked that the Deputy Secretary chair a quarterly
meeting of the Department’s principal officials who have staff in China. The Secretary stated
that the purpose of the meeting will be to provide a forum for the exchange of information, to
identify emerging issues, and to improve overall coordination of the Department’s China
operations. We appreciate the Secretary’s efforts to ensure the Department continues to be
flexible and innovative in its operations to ensure continued effectiveness.

The Deputy Under Secretary for International Trade also provided comments on our draft report.
ITA generally appeared to concur with nearly all of our recommendations, although it did not
always use those words. ITA also indicated actions that it had taken or was planning to take to
address our recommendations. The only major point of disagreement centered on our
recommendation to revise the CS Operations Manual to include clear and precise requirements
for written documentation and verification of the required elements of an export success. ITA’s
response stated that CS does not anticipate any change to its April 2005 guidance, but it will
make changes to the export success reporting form, which it states will reinforce export success
record-keeping requirements and integrate them with other verification elements. CS will also
take steps to clarify the export success guidelines with its cadre of officers at upcoming Senior
Commercial Officer conferences. Further, the agency’s response states that CS disagrees with
the OIG’s application of the guidance, particularly in terms of the need for client verification of
export successes, documentation, and linkage between the service provided and export success.
The response states that applying CS’ interpretation of the guidelines, 32 percent of CS China’s
export successes should be categorized as unverified, not 44 percent as reported by the OIG.

While we acknowledge CS’ efforts to clarify export success guidelines at the upcoming
conferences, we also note that the problems we identified in our report occurred as a direct result
of deficiencies in the guidelines. Indeed, when we met with several senior CS officials in
February 2006 to discuss the export success reporting guidelines, they had differing
interpretations as to what the guidance said and what documentation was needed to support a
legitimate export success. Differing interpretations of the guidelines will continue to be an issue
unless the guidance is revised to remove the ambiguity and better clarify CS’ policy. We are
requesting that ITA and CS rethink their position on this issue when preparing the action plan for
dealing with the recommendations made in this report.

Finally, USPTO provided comments to our draft report. In response to our recommendation to
develop a regular standards and IPR training program for CS officers and staff, USPTO said that
CS should take advantage of its annual IPR training for U.S. government officials. This training
will next be held June 15-16, 2006. Additionally, USPTO stated that it could provide IPR
training during CS China’s all-hands meetings or during visits to the post by USPTO officials.

We discuss the Department’s responses to our findings and recommendations in greater detail
following each chapter of this report. We have also included copies of the three responses to our
draft report in their entirety as appendices to this report—the Secretary’s response begins on
page B-1, ITA’s response begins on page C-1, and USPTO’s response can be found on page D-1.
In addition, the responses to the classified appendices are attached to those sections and provided
under separate cover.


                                                vi
U.S. Department of Commerce                                                             Final Report IPE-17546 

Office of Inspector General                                                                        March 2006 



                                          BACKGROUND
                        China’s average growth rate of 10 percent since 1993 has propelled it to
                        the status of third largest trading nation in the world, surpassed only by
                        the United States and Germany. Although China is the fifth largest
                        export market for the United States, U.S. exports to China totaled only
                        $38.9 billion in fiscal year 2005. Chinese imports to the United States
                        exceeded $232.9 billion.9 In 2004, China attracted more foreign direct
investment than any country other than the United States. The United States is a significant
investor in China, with investment growing from $2 billion in 1995 to $15 billion in 2004.10

China’s 1.3 billion population, large land mass, nuclear capabilities, wealth of raw materials, and
rapid economic growth make it a country of significant geopolitical importance. China is one of
the five permanent members of the United Nations Security Council. It joined the Asia-Pacific
Economic Cooperation (APEC) in 1991 and the World Trade Organization (WTO) in late 2001.
China also will host the summer Olympics in Beijing in 2008 and the World Expo in Shanghai in
2010.

Both the U.S. government and business sectors have concerns about the U.S. trade deficit with
China and inequities in Chinese markets. China’s intellectual property rights enforcement,
currency valuation, technical barriers to trade, restrictions on trading and distribution rights, and
closed regulatory environment are but a few of the issues that give pause to U.S. business
interests. These topics and others are discussed at annual meetings of the U.S.-China Joint
Commission on Commerce and Trade (JCCT), the bilateral organization formed to address trade
concerns and promote commercial opportunities. Despite the difficulties in U.S.-China trade
relations, the U.S. increased exports to China by 22 percent in 2004. The U.S. is now a major
supplier of power generation equipment, aircraft and parts, computers and industrial machinery,
raw materials, and chemical and agricultural
products to China.

The United States restricts export of high-
technology products that might have military
applications to China, which has been a                               Key Statistics for China
communist state since 1949. Although some                                       2004
U.S. technology companies and industry
associations have complained that these                  GDP                        $1.65 trillion
                                                         Per Capita GDP             $1,200
export controls obstruct attempts to increase
                                                         U.S. Exports               $34.7 billion
trade with China, only about 2 percent of                U.S. Imports               $196.7 billion
U.S. exports to China in 2004 required                   Population                 1.3 billion
export control licenses, according to                    Unemployment               8-10 percent
Commerce’s Bureau of Industry and Security               GDP Growth                 9.5 percent
(BIS).                                                   Total Area                 3.7 million square miles

9
  U.S. Census Bureau, Foreign Trade Statistics, Trade in Goods (Imports, Exports and Trade Balance) with China, 

www.census.gov/foreign-trade/balance/c5700.html, February 13, 2006.

10
   China Trade: U.S. Exports, Investment, Affiliate Sales Rising, but Export Share Falling, U.S. Government 

Accountability Office, GAO-06-162, December 2005. 




                                                        1

U.S. Department of Commerce                                                              Final Report IPE-17546 

Office of Inspector General                                                                         March 2006 



U.S.-China Joint Commission on Commerce and Trade

The JCCT is a government-to-government consultative mechanism that provides a forum to
resolve trade concerns and promote bilateral commercial opportunities. The JCCT was
established in 1983 and holds a plenary session annually. Beginning with the 2004 JCCT
plenary session, both the Chinese government and the U.S. government upgraded the level of
their representation at the plenary sessions; the Chinese delegation is now chaired by the Vice
Premier, while the Secretary of Commerce and the U.S. Trade Representative head the United
States’ delegation. The most recent JCCT plenary session took place in Beijing in July 2005.11
Ten JCCT working groups, which meet periodically, address issues from intellectual property
rights to export controls. The JCCT plenary sessions usually formalize agreements made in
these working groups.

Commerce Operations in China

The Department of Commerce has a major presence inside China, with the following bureaus
operating in the country:

International Trade Administration (ITA)

     • 	 U.S. Commercial Service (CS):12 Responsible for providing export assistance to U.S.
         firms through counseling, trade events, market research, and advocacy efforts (17
         officers, 89 local staff).

     • 	 Import Administration (IA): Responsible for enforcing laws and agreements to prevent
         unfairly traded imports. Also assists U.S. companies facing Chinese trade remedy
         proceedings (2 officers, 3 local staff).

     • 	 Market Access and Compliance (MAC): Responsible for pursuing market access for
         American firms and obtaining full compliance by foreign nations with trade agreements
         signed between the country and the U.S. (2 officers, 4 local staff).13

U.S. Patent and Trademark Office (USPTO): Responsible for working on intellectual property
rights (IPR) issues in China, in cooperation with other Commerce and U.S. government agencies
(1 officer; 2 additional officers and 6 local staff pending).




11
   The July 2005 plenary session also included the participation of the U.S. Secretary of Agriculture.
12
   The Commercial Service is also known as the U.S. and Foreign Commercial Service.
13
   Together, the IA and MAC operations in China are referred to as the Trade Facilitation Office (TFO), which is
located in the same building as CS, but on a different floor. The USPTO officer, also known as the IPR attaché, is
currently working out of State’s Economic section in the embassy. However, negotiations are underway to move
him to the TFO by the end of FY 2006. The BIS officer and the CS officer who works on standards issues are
collocated with CS.



                                                         2

U.S. Department of Commerce                                                  Final Report IPE-17546 

Office of Inspector General                                                             March 2006 


Bureau of Industry and Security (BIS): Responsible for conducting end-use checks of export
controlled items, working with the Chinese government to enforce U.S. export control laws and
regulations, and assisting U.S. companies with export control issues (1 officer, 1 local staff).

In addition, a CS China officer works closely with the National Institute of Standards and
Technology (NIST) on standards issues. And, until October 2005, a special counsel also
represented the Secretary of Commerce in Beijing.

International Trade Administration’s Role in Promoting Trade with China

                                                 CS’ operation in China is its largest, with offices
                CS China Staff                   in Beijing, Shanghai, Guangzhou, Chengdu and
                                    Local        Shenyang and 106 officer and staff positions.
                  Officers          Staff        The post’s budget in fiscal year 2005 was
  Beijing           9                38          approximately $8.5 million, with $2.8 million of
  Shanghai          5                25          that amount designated for salaries and benefits
  Guangzhou         1                14          of CS’ 17 foreign service officers. The remainder
  Chengdu           1                 8          was allotted for administrative costs, office and
  Shenyang          1                 4          residential leases, and direct program support.
  Totals           17                89
                                                   Most of CS China’s personnel are Chinese local
  Note:   Includes 6 vacant positions
                                                   residents, although the post also employs several
                                                   resident American citizens. CS China now has
  Source: CS China Quarterly Personnel Report,     much more latitude and discretion in hiring local
  January 20, 2006                                 staff because requirements that all diplomatic
                                                   missions hire through the Chinese government’s
Diplomatic Services Bureau (DSB) have been relaxed. CS offices in Beijing, Chengdu, and
Shenyang are able to directly hire local staff, although DSB remains the legal employer. Under
this arrangement, DSB does not retain portions of the employees’ salaries. CS offices in
Shanghai and Guangzhou hire through the local DSB, which retains a significant portion of the
employees’ salary. Locally hired American citizen personnel are not subject to the DSB rules.




                                                 3

U.S. Department of Commerce                                                 Final Report IPE-17546 

Office of Inspector General                                                            March 2006 


                        Figure 1: Commercial Service Offices in China




         Source: U.S. Embassy Beijing

CS also provides assistance and counseling for U.S. businesses interested in exporting to China
through its domestic U.S. export assistance centers (USEACs), located in more than 100 U.S.
cities. These centers work with local and state trade offices, export councils, and other public
and private organizations to sponsor China trade seminars, counseling, and other assistance for
interested U.S. companies. CS also maintains the China Business Information Center web site
(www.export.gov/china) and has a network of specialists, including commercial officers who
previously worked in China, that counsel U.S. firms interested in the China market. Finally, CS
                        runs the Advocacy Center in its Washington, D.C. headquarters, which
                        works closely with CS China to coordinate official U.S. government
                        efforts on behalf of U.S. exporters, especially those seeking to win major
                        contracts or participate in major projects with the Chinese government.

                        MAC’s China desk in Washington, D.C., coordinates with CS China on
                        market access and other trade policy issues, as well as its own staff in the
                        TFO. The Trade Compliance Center, which is part of MAC, also
                        periodically coordinates with CS China to assist U.S. exporters
                        struggling with Chinese trade barriers. Finally, ITA’s Manufacturing and
Services unit has industry specialists who work with CS China on industry-specific trade issues.

CS China Coordination with Other Agencies and Organizations

CS China coordinates with several other governmental and non-governmental entities that
promote U.S. exports to China or are active in promoting the interests of U.S. businesses in
China (see Table 1). In addition, CS China supports other U.S. government agencies such as the
State Department, the Agriculture Department, and the U.S. Trade Representative, in their efforts
to promote market access for U.S. companies and Chinese compliance with trade agreements.



                                                 4

U.S. Department of Commerce                                                                    Final Report IPE-17546 

Office of Inspector General                                                                               March 2006 



Table 1: Highlights of CS China’s Coordination with Other Entities14
                             OTHER GOVERNMENTAL ORGANIZATIONS
State Department                CS China regularly coordinates with State’s Economic Affairs
                                section on trade and market access issues and the Consular Affairs
                                section on visa issues. CS China also relies on other State
                                Department sections for administrative and human resources
                                support.
United States Trade             USTR coordinates with CS China on trade and market access
Representative (USTR)           issues, as well as JCCT issues. However, USTR primarily works
                                with the State Department in China and MAC at Commerce
                                headquarters in Washington, D.C.
Export-Import Bank              ExIm and CS China occasionally coordinate to promote ExIm
(ExIm)                          financing for U.S. exporters.
U.S. Trade                      A local-hire TDA staff person works out of CS offices in Beijing.
Development Agency              CS China and TDA coordinate to support development efforts in
(TDA)                           China that may lead to U.S. exports, including TDA funding for
                                trade studies, training, and travel.
                                        BUSINESS ORGANIZATIONS
American Chambers of            CS China regularly cooperates with the AmCham in Beijing,
Commerce in China               Shanghai, Guangzhou, and Chengdu.
(AmCham)
U.S. China Business             CS China regularly communicates with the U.S. China Business
Council                         Council and coordinates various trade efforts with the council.
U.S.-based business             CS China maintains productive relationships with several U.S.-
organizations                   based business organizations to address U.S.-China trade issues,
                                including the U.S. Chamber of Commerce and the National
                                Association of Manufacturers.

CS offices also regularly coordinate with the State Department’s Consular Affairs sections. CS
officers can help facilitate visa applications through the embassy’s visa referral process.
Additionally, although the State Department’s visa procedures in China are primarily intended to
protect U.S. security and prevent illegal immigration, State has tried to help facilitate legitimate
business-related visa applications by instituting programs through the AmCham in Beijing,
Shanghai, and Guangzhou to expedite the visa application process for priority business visa
applicants. Despite these programs and CS’ assistance on selected visa applications, many U.S.
companies, business associations, and CS officers characterize the visa application process as
being a significant impediment to the expansion of U.S. exports to China.

CS also has a unique asset in China that allows it the opportunity to coordinate on a daily basis
with six other U.S. trade promotion organizations—its commercial center in Shanghai. The
commercial center initiative is designed to bring organizations complementary to CS’ mission
under one roof to develop synergy that benefits all of the operations. The Shanghai commercial
center provides fully equipped office space and other resources to six partner organizations: the
Association for Manufacturing Technology; the city and county of Denver; the Packaging
Machinery Manufacturers Institute; and the states of Michigan, Illinois, and Washington.

14
     This list is not all-inclusive, but includes the organizations that CS China most frequently interacts with.



                                                              5

U.S. Department of Commerce                                                              Final Report IPE-17546 

Office of Inspector General                                                                         March 2006 



                                American Trading Centers

                             In the FY 2004 Appropriations Act for the Department of Commerce
                             and related agencies, Congress mandated the creation of American
                             Trading Centers (ATC) to be opened in “major Chinese commercial
                             centers” designed to “enable U.S. exporters to receive assistance
                             while in [China] and provide for on the ground expertise, including
                             market research capabilities.” The appropriations language also
Sign for the U.S. Commercial
Center in Shanghai           stated that the ATCs would help “enforce the commitments made by
                             China as part of the China’s WTO accession agreement.” The Act
explicitly required CS to hire at least six people to support the ATC initiative.
Figure 2: American Trading Center Offices in China




                                                                                          * HARBIN



                                                                                   * DALIAN
                                                               TIANJIN *
                                                                                 * QINGDAO
                                                      XI’AN *                  * NANJING/JIANGSU
                                                           WUHAN *    * HANGZHOU
                                    CHONGQING *                  NINGBO *

                                  KUNMING *                             * XIAMEN
                                                          ZHUHAI * * SHENZHEN
             Source: CS



To fulfill the mandate, CS partnered with the Chinese Council for the Promotion of International
Trade (CCPIT), a Chinese quasi-governmental entity charged with promoting investment and
foreign trade. On July 12, 2005, CS signed a memorandum of understanding (MOU) with
CCPIT establishing the “CCPIT-US&FCS International Partner Network.” Under the
agreement, CS will use the CCPIT to deliver services to US exporters in 14 “key Chinese
business centers” that do not already have CS offices.15 The MOU stipulates “CCPIT is
committed to facilitating U.S. companies’ exports of goods and services to China, notably to
geographic areas of China that are beyond the normal reach of existing US&FCS posts.” CCPIT
15
  While considered one “business center” by CS, the Nanjing/Jiangsu Province ATC is actually covered by two
distinct CCPIT offices. Thus, there are really 15 CCPIT offices that will be providing services to U.S. companies
through the ATC network.



                                                         6

U.S. Department of Commerce                                               Final Report IPE-17546 

Office of Inspector General                                                          March 2006 


agreed to provide matchmaking services between U.S. exporters and prospective Chinese buyers,
agents, or distributors under the CS Gold Key service (GKS) and International Partner Search
(IPS) programs. According to the terms of the agreement between CCPIT and CS, CCPIT
receives 40 percent of the total fee that is paid by American companies for these services; CS
retains 40 percent and the American Chamber of Commerce in Beijing receives 20 percent for its
role in facilitating the service. As of December 1, 2005, nine CCPIT offices had provided
services through the ATC network. Six offices were not yet operational, including both offices
in the Chengdu consular district, where the program has yet to be implemented due to the lack of
a CS officer and an ATC coordinator.

CS China created 11 new local staff positions to support the ATC initiative and has hired
coordinators for the ATC offices in the Shanghai and Guangzhou consular districts. CS plans to
hire coordinators for the Beijing, Chengdu, and Shenyang consular districts in the near future.
These positions require security clearances and must be filled by American citizens.

As part of the ATC initiative, CS also has dramatically increased its participation in major
Chinese trade shows, although the ATC legislation did not explicitly mention trade show
participation. Prior to the ATC initiative, only the Shanghai office actively sponsored American
exhibitors at Chinese trade shows. CS China has also hired six additional commercial specialists
to support the trade show initiative—two each in Beijing, Shanghai, and Guangzhou.




                                               7

U.S. Department of Commerce                       Final Report IPE-17546 

Office of Inspector General                                  March 2006 





                      PAGE INTENTIONALLY BLANK





                                  8

U.S. Department of Commerce                                                              Final Report IPE-17546 

Office of Inspector General                                                                         March 2006 


                          OBJECTIVES, SCOPE, AND METHODOLOGY 


The Commerce Office of Inspector General (OIG) conducted this inspection of the U.S. and
Foreign Commercial Service (CS) and other Commerce offices in China in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency
in 2005. The inspection was conducted under authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.

The intent of our inspection was to examine the effectiveness of the management, programs, and
financial and administrative operations of CS China, in conjunction with an assessment of
Commerce’s overall mission and activities in China. Specifically, we planned to determine
whether the post:

     • 	 Plans, organizes, and controls its work and resources effectively and efficiently;
     • 	 Meets the needs of U.S. exporters and increases U.S. exports and market access through
         effective operations;
     • 	 Maintains appropriate internal controls and financial management practices;
     • 	 Efficiently manages human resources;
     • 	 Supports Commerce’s trade compliance, intellectual property rights (IPR), and market
         access efforts
     • 	 Works effectively with other embassy components and partner organizations; and
     • 	 Maintains adequate and secure physical infrastructure.

To meet these objectives, we:

     • 	 Reviewed the post’s FY 2004 and FY 2005 performance measures, including export
         successes and quality assessments, and contacted a random sample of clients that utilized
         CS’ services;
     • 	 Interviewed all appropriate Commerce and CS headquarters staff, as well as trade
         partners from various federal, state, and local government agencies and organizations,
         industry associations and business partners that regularly collaborate with the post;
     • 	 Interviewed the staff from the various Commerce agencies located in China;16
     • 	 Evaluated the post’s American Trading Center (ATC) initiative and traveled to the ATC
         offices in Nanjing and Jiangsu province, speaking to Chinese Council for the Promotion
         of International Trade (CCPIT) officials from these offices, as well as representatives
         from the CCPIT offices in Shenzhen and Zhuhai and initial customers of the ATC
         network;
     • 	 Evaluated the commercial center in Shanghai and interviewed five of the six collocated
         trade partners;
     • 	 Assessed the post’s internal controls and financial management practices including
         examining the collections and deposits, imprest fund/petty cash, procurements, credit
         card usage, travel orders and vouchers, inventory, representation fund, gifts and bequests,


16
  We did not evaluate the operations or performance of the other non-CS components of Commerce in China. We
only looked at their interaction and coordination with CS, as part of the overall Commerce mission in the country.



                                                         9

U.S. Department of Commerce                                                      Final Report IPE-17546 

Office of Inspector General                                                                 March 2006 


       international cooperative administrative support services (ICASS), and use of
       government property for fiscal years 2003 to 2005.

In January 2003, CS’ Office of Planning conducted a Management Performance Review (MPR)
of its offices in China. An MPR is a tool for CS senior managers to review and reestablish
program direction, identify and adopt systemic management and program improvements, and
provide assurance that the organization is operating efficiently and effectively. The MPR team
identified numerous issues in China during that review that required management attention.
During our evaluation, we followed up on some of these issues to determine whether problems
had been solved or whether any concerns related to the issues raised in the MPR review
remained.

We conducted our fieldwork from        Table 2. U.S. and Chinese Partner Organizations
July 25 to December 23, 2005, and               Interviewed by the OIG
conducted on-site inspections of all
five Commerce offices in China
                                         In addition to meeting with officials of U.S. government trade-
from September 12 to September           related agencies, we met with representatives of the U.S. and
30, 2005. During the course of our       Chinese business and trade associations, and the U.S. state and
inspection, we met with all              municipal offices listed below.
Commerce personnel in China who
were at the post during our visit,       Washington D.C.
                                              National Association of Manufacturers (NAM) 

including the secretary’s special             National Confectioners Association 

counsel and officers from CS,                 National Printing Equipment Association (NPES) 

Import Administration (IA),                   U.S. Chamber of Commerce 

Market Access and Compliance                  U.S.-China Business Council

(MAC), Bureau of Industry and
                                         Beijing
Security (BIS), and the United                 American Chamber of Commerce (AMCHAM) Beijing
States Patent and Trademark                    U.S.-China Business Council Beijing
Office (USPTO). We also met                    U.S. Information Technology Office (USITO)
with the U.S. Ambassador to
China; the Deputy Chief of               Guangzhou
                                              AMCHAM Guangzhou
Mission; the Consuls General in
Shanghai, Chengdu, and Shenyang;         Shanghai
the Acting Consul General in                  AMCHAM Shanghai
Guangzhou; as well as consular,               AMCHAM Travel and Tourism Committee
administrative, economic, political           Association of Manufacturing Technology (AMT)
                                              China Aerospace Science and Industry Corporation
and security officials at all five              (CASIC)
posts. We spoke with officials in             City and County of Denver
China from the Foreign                        Overseas Real Estate Association
Agricultural Service and                      Packaging Machinery Manufacturers Institute (PMMI)
representatives from various trade            Quality Brands Protection Committee (QBPC)
                                              Semiconductor Equipment and Materials International
and partner organizations (see                  (SEMI)

Table 2) and numerous U.S.                    State of Washington 

companies doing business in                   State of Illinois 

China. We also met with the                   State of Michigan 

President’s Coordinator for
                                        Source: OIG



                                                10 

U.S. Department of Commerce                                             Final Report IPE-17546 

Office of Inspector General                                                        March 2006 


International Intellectual Property Enforcement. Finally, we consulted with the Government
Accountability Office (GAO) and discussed issues related to its work on China trade.

Upon our return to Washington, D.C., we briefed the Deputy Secretary, Under Secretary for
International Trade, Director General and Deputy Director General of the U.S. and Foreign
Commercial Service, the Under Secretary for Industry and Security, the Under Secretary for
Intellectual Property and Director of USPTO, the Director, National Institute of Standards and
Technology (NIST), and the Deputy Assistant Secretary for Asia. We also discussed our
findings with the CS China senior commercial officer (SCO), the Deputy Assistant Secretary for
International Operations, and the East Asia and Pacific (EAP) Regional Director throughout the
course of our inspection. We met with Commerce officials from various offices in the
International Trade Administration (ITA), including CS, IA, MAC, and Manufacturing and
Services (M&S). We also debriefed officials from other Commerce bureaus, including USPTO,
BIS, and NIST.




                                              11 

U.S. Department of Commerce                      Final Report IPE-17546 

Office of Inspector General                                 March 2006 





                        PAGE INTENTIONALLY BLANK 





                                   12 

U.S. Department of Commerce                                                  Final Report IPE-17546 

Office of Inspector General                                                             March 2006 


                           OBSERVATIONS AND CONCLUSIONS 


I. 	   Commerce’s China Mission Faces Unique Management Challenges and
       Opportunities

China is not only Commerce’s largest overseas mission, it is also the only overseas post with
permanently assigned staff from three separate Commerce bureaus and three organizations
within the International Trade Administration (ITA). The management structure of Commerce’s
China mission was designed for a much smaller and more limited overseas operation and this
structure may not respond effectively to future growth in Commerce’s China operations.
Efficient coordination of Commerce’s complex and varied mission with permanent staff from
multiple bureaus is important for the Department’s overall success there. Commerce also must
address the challenges of managing the large and geographically diverse U.S. and Foreign
Commercial Service (CS) operation from its post headquarters in Beijing. During our inspection
of CS’ four offices outside of Beijing, we found strong management in its Shanghai and
Guangzhou offices, but we also found that CS faces challenges in effectively managing and
staffing its more peripheral offices in Chengdu and Shenyang. We also found lengthy vacancies
in several of Commerce’s other positions in China that indicate the need for the Department to
improve human resource planning for its positions in China.

A. 	   A team effort is essential to the success of Commerce’s China programs

China’s growing economy and the expanding U.S.-China trade deficit, which reached about
$193.9 billion in fiscal year 2005, represent substantial challenges for the Department as it seeks
opportunities to promote a constructive trade relationship between China and the United States.
As Commerce confronts its major challenges in China, such as promoting U.S. exports,
protecting intellectual property rights (IPR), improving market access, enforcing export controls,
and promoting U.S. industry standards, it must be able to depend on a seamless team effort, both
from its staff on the ground in China and its various headquarters units with interests or
responsibilities in China. Policy disagreements, confusing lines of authority, logistical issues, or
conflicting objectives would hinder the effectiveness of Commerce’s efforts in China.

The complexity of managing Commerce’s China operations goes beyond the organizations with
personnel in the country. As shown in Figure 3, a host of other Commerce organizations have
significant interests or responsibilities in China. Other key U.S.-based Commerce organizations
working on China trade issues include the Advocacy Center, the China Business Information
Center, CS’ U.S. Export Assistance Centers, ITA’s Manufacturing and Services, and the
President’s Coordinator for International Intellectual Property Enforcement. Active support
from and close coordination with Commerce personnel in China are keys to the success of these
organizations’ China-specific efforts.

The effective management and coordination of Commerce’s China efforts is also a prerequisite
for Commerce’s constructive coordination with other government agencies and private sector
organizations. Commerce should speak as one voice on complex policy issues or it will not be
able to best lead the cross-organizational efforts that are needed to make progress on the
substantial challenges that these organizations face in China.



                                                 13 

U.S. Department of Commerce                       Final Report IPE-17546 

Office of Inspector General                                  March 2006 





                      PAGE INTENTIONALLY BLANK





                                 14 

                             Figure 3: Commerce’s Multi-Faceted Trade
                                          Efforts in China
China-based Commerce Interests and Operations                                                                                            Office of the Secretary
 U.S. and Foreign Commercial Service (CS)*                                                                                               1 Special Counsel; 1 staff
                17 officers; 89 staff                                                                                                  Serves as special counsel to the
Promotes the exports of goods and services from the                                                                                     Secretary; handles high-level
 United States, particularly by small and medium-                                                                                             U.S. delegations
                 sized businesses.


                                                                                                                      U.S. Patent and
   Bureau of                     Import                                                                              Trademark Office               Market Access
  Industry and                Administration                                                                        1 officer; 2 additional        and Compliance
    Security*                  2 officers; 3 staff                                                                   officers pending; 6          2 Trade Compliance
 1 Export Control                 Assists U.S.                                                                           staff pending              Officers; 4 staff
 Officer; 1 shared             companies facing                                                                     Works on IP issues in            Pursues market
       staff                 Chinese trade remedy                                                                   China in coordination         access for American
 Conducts end-use            proceedings; enforces                                                                  with other Commerce               firms and full
 checks and other            laws and agreements                                                                    and U.S. Government              compliance of
    BIS export                to prevent unfairly                                                                           entities                  foreign trade
  control-related               traded imports                                                                                                         agreements
     activities


Washington-based Commerce Interests and Operations
                                                                                                                         Office of                 China Business
                                       Advocacy                                                 Import                 International                Information
   Intellectual Property                                   U.S. Export Assistance            Administration                                         Center (BIC)
    Rights Coordinator                Center (ITA)          Centers (USEACs)                                          Operations (CS)
                                     Coordinates USG                                         Overseas U.S. trade         Manages CS                 Provides one-stop
      Coordinates U.S.                                     Provide export counseling           remedies and                                       counseling on China
    government efforts to            advocacy for U.S.       and facilitate orders of                                 operations in China
                                      firms bidding on                                        manages import                                      and supports China-
   combat overseas piracy                                    products and services           administration staff                                  related trade shows
     and counterfeiting                foreign tenders         provided in China                  in China                                              and events



       Bureau of                     Market Access and             Manufacturing                        National Institute of
  Industry and Security              Compliance (ITA)             and Services (ITA)                 Standards and Technology                   U.S. Patent and
   Administers U.S. export            Develops DOC trade         Advocates on behalf of                 Develops and promotes                  Trademark Office
     control laws and                   policy on China         U.S. industry and monitors            measurement, standards, and              Provides training and
        regulations                                                    U.S. industrial                  technology to enhance                 guidance on intellectual
                                                                      competitiveness                      productivity and                      property law and
                                                                                                            facilitate trade                       enforcement
                      *Does not include Hong Kong Staff
                      Source: OIG Analysis
U.S. Department of Commerce                                                              Final Report IPE-17546
Office of Inspector General                                                                         March 2006

B.       Commerce should clarify its management structure in China

While most Commerce personnel in China work for CS, Commerce’s other operations in China
are substantial. Commerce has a Trade Facilitation Office (TFO) in Beijing with officers from
both ITA’s Market Access and Compliance (MAC) and Import Administration (IA). In addition,
there are officers in Beijing representing both the Bureau of Industry and Security (BIS) and the
U.S. Patent and Trademark Office (USPTO),17 as well as a CS officer assigned to a newly
created standards portfolio who coordinates closely with the National Institute for Standards and
Technology (NIST). Until recently, the Secretary of Commerce also assigned a special counsel
to Beijing.18 While there are officers from BIS, MAC, and IA assigned to other posts, the
unprecedented size and scope of the Department’s China operations calls into question the
effectiveness of a management structure that was designed for a smaller and more limited
Commerce overseas missions.

Commerce’s management structure in China is unclear. There is currently no one person in
China, or any other Commerce overseas mission, with the undisputed authority to coordinate and
organize the efforts of all the Commerce organizations represented there. Within the CS post,
the senior commercial officer (SCO) is the top official, but he plays a more ambiguous role in
relation to the other Commerce operations in China. The SCO reports both to the ambassador
and to CS management in Washington, and the ambassador told OIG that all Commerce officials
in China should report to him through the SCO. Despite this formal reporting structure to the
ambassador, the SCO is only a nominal part of the chain of command for many of the non-CS
Commerce employees, such as the TFO officers and the BIS export control officer,19 who
primarily report to and coordinate with their organizational units in Washington. MAC and IA
staff in China reported that they have little interaction with CS and the SCO, at least in part
because the TFO office space is physically separated from the rest of the Commerce staff
although located in the same building. The IPR attaché interacts regularly with CS, but this
officer currently works out of the State Department’s Economic Affairs section of the embassy
and has complete autonomy from the other Commerce staff in China, including the SCO.

Even though Commerce’s existing management structure for its China operations mirrors that of
its other overseas missions, the current management structure may not be optimal considering the
unprecedented size and scope of Commerce’s mission in China. Commerce’s China team may
miss opportunities because it is saddled with a management structure designed for a smaller and

17
   The IPR attaché, who represents USPTO, is officially an employee of the State Department and works out of
State’s Economic Affairs section. However, the position is funded by USPTO and the officer coordinates closely
with USPTO management. This arrangement is changing, as USPTO has decided to post all additional officers (it
has plans to put one in Beijing and one in Guangzhou) to the commercial section of the U.S. diplomatic mission, and
it intends to transfer the current IPR attaché to the commercial section as well. The transition is scheduled to be
completed by the end of FY 2006.
18
   The Secretary of Commerce can appoint one special counsel to a CS post. Former Secretary Evans had appointed
a special counsel in Beijing in October 2003. This official remained in Beijing after Secretary Gutierrez’s
appointment, but resigned his position in October 2005. Secretary Gutierrez has not yet named a replacement, and
has not yet indicated to which post the next special counsel will be assigned, or indeed whether the position will be
continued.
19
   According to the memorandum of understanding between CS and BIS, the export control officer reports to the
SCO for administrative issues, but reports directly to BIS headquarters on all other issues.



                                                         16
U.S. Department of Commerce                                                           Final Report IPE-17546
Office of Inspector General                                                                      March 2006

more limited overseas mission. While the officers currently serving in China generally appear to
be coordinating their efforts in a constructive way, this cooperation is primarily based on
informal working relationships. Once the current officers leave China, however, there is no
guarantee that the existing level of cooperation among the various Commerce organizations will
continue. Future additions to the Commerce mission in China, such as the planned expansion of
the USPTO contingent in Beijing and the planned addition of a new USPTO officer in
Guangzhou, will further complicate efforts to effectively manage Commerce’s large and diverse
staff in China. Future initiatives, crises, or policy changes might create conflicts or operational
challenges that could only be effectively resolved by a robust management structure for
Commerce operations in China. Commerce should not continue to rely upon ambiguous
reporting structures and personal relationships to coordinate its China programs and operations,
but should provide its management with the direction and authority necessary to effectively
coordinate the Department’s multi-faceted China efforts.

The role of the Secretary’s special counsel is ambiguous. At the time of our review, we noted
the Secretary of Commerce’s special counsel further confused the reporting structure in China
because the role of the Special Counsel was never clearly defined. The special counsel primarily
worked on representation and advocacy issues while the SCO focused on day-to-day
programmatic operations and management. While this arrangement was effective, by most
accounts, the working relationship between the two officials was based on compatible
personalities and mutual respect—not a clear delineation of the positions’ responsibilities and
chain of command. The heavy workload at Commerce’s China mission also left more than
enough work for both officials, and this helped preclude conflict and “turf battles” that some
expected and feared. Despite the effective working relationship between the SCO and the former
special counsel in China, the ambiguous responsibilities of the special counsel position could
strain the relationship between a future SCO and a future special counsel. We note that the dual
assignment of a special counsel and an SCO to the same post created real problems at another
key CS post in recent years. Before assigning another special counsel to China or any other post
that also has an SCO, the Department should clearly define the roles and responsibilities of the
special counsel position vis-à-vis those of the SCO.

C.      The Commercial Service faces challenges in managing its peripheral offices

During our inspection of the five offices of CS China, we found that the SCO was providing
clear guidance to the Beijing office, and there was strong leadership of the Shanghai and
Guangzhou offices by the principal commercial officers (PCOs) with adequate oversight from
the SCO. Managing the smaller offices in Shenyang and Chengdu, however, presents more of a
challenge for CS. CS has had difficulty in attracting qualified officers to serve in them, in part
because they are distant from the more established trading centers and the U.S. mission. But
both of these cities are large and serve regions not easily reached by the other CS posts. The
importance of the PCO positions in Shenyang and Chengdu is amplified by the limited demand
for traditional CS products and services in these cities. This limited demand necessitates that
these smaller CS offices take a more proactive approach to promoting U.S. exports in their
regions, thus creating further challenges for these PCOs.20 The officers assigned to these
20
  Many U.S. businesses are less familiar with Chengdu and Shenyang, thus they tend to focus on the more
developed coastal region of China.



                                                      17
U.S. Department of Commerce                                                            Final Report IPE-17546
Office of Inspector General                                                                       March 2006

peripheral cities cannot effectively manage the office by waiting for clients to knock on the door,
but rather must search for business opportunities that can be presented to qualified U.S.
businesses.

The commercial potential of the Shenyang and Chengdu consular districts appears to justify the
presence of the CS offices in those locations, as strong economic growth in these regions
continues and the Chinese government places emphasis on economic development in more
peripheral areas. In several meetings with U.S. businesses operating in China, we found them to
be particularly bullish on the economic potential of Chengdu and the Sichuan region. According
to the Consul General in Chengdu, several European countries have recently opened consulates
in that city, and these new consulates are primarily focused on promoting business opportunities
in the Sichuan region. The Consuls General in both Chengdu and Shenyang are eager to assist
CS; they both characterized the promotion of U.S. business interests as one of the primary
functions of the U.S. mission.

Chronic vacancies in the PCO position in Chengdu create a management vacuum. The
Chengdu office has been hampered by chronic turnover and long vacancies in the PCO position
and only limited assistance and oversight from CS Beijing. According to the acting PCO, a
locally-hired U.S. citizen, only one officer has served a full two-year assignment in Chengdu in
the seven years that she has worked for the office. At the time of our inspection, the SCO had
only been to Chengdu once since the departure of the last PCO in March 2005. Although CS
Beijing has sent two administrative officers to Chengdu for brief visits, and the Deputy SCO
assisted CS Chengdu with a trade show, such sporadic visits are not a satisfactory substitute for a
coordinated management support effort from Beijing for a post without a PCO. The Consul
General in Chengdu has been extremely frustrated by the ongoing absence of a PCO and the lack
of additional support from CS Beijing to compensate for the absence of a permanent PCO.21 The
Consul General felt that the lack of a PCO prevents the CS office from taking full advantage of
the expanding commercial potential of the Sichuan region.

We also found that the lack of a PCO in Chengdu has left no one to perform some normal
managerial tasks, such as organizing staff training opportunities, adjusting staff responsibilities,
and ensuring proper approval of export success stories. CS Chengdu also uses an unusual matrix
structure governing the staff’s commercial responsibilities that may no longer be appropriate. In
Chengdu, the commercial specialists have responsibility both for specific industries and for
specific regions within the consular district, which contrasts with the industry-specific staff
assignments of the other CS offices in China. The lack of a PCO in Chengdu also hampers the
development of the planned American Trading Centers (ATCs) in Kunming and Chongqing
because CS cannot hire an ATC coordinator until there is a PCO in place to supervise the new
hire.

Staffing the PCO position in Shenyang is a challenge for CS. CS has also been unable to
recruit a CS foreign service officer to serve in Shenyang. After the departure of the previous
PCO, a limited-appointment officer from CS headquarters, no CS officer bid for the PCO
position in Shenyang. A senior State Department officer whose spouse was assigned to
21
  CS had slated a limited appointment CS officer to fill the vacancy in Chengdu starting in October 2005. However
this appointment fell through and CS has been forced to start over in trying to fill the position.



                                                       18
U.S. Department of Commerce                                                           Final Report IPE-17546
Office of Inspector General                                                                      March 2006

Shenyang as Consul General approached CS about the position, and this officer has served as
PCO for over a year. While the current PCO has worked effectively with CS Beijing to promote
U.S. exports in northern China, the availability of a senior State Department officer was
fortunate. CS must address its long-term personnel recruiting problems in Shenyang as well as
Chengdu.

CS needs to ensure that the PCO positions in Shenyang and Chengdu are part of a coordinated
strategy to recruit, retain, and develop officers with a specialization in China. Given the
difficulty of recruiting qualified officers to serve in Shenyang and Chengdu, CS should use
whatever tools are necessary to recruit qualified individuals, including offering enticements such
as conditional promotions and bonuses. If those methods are not successful, CS should also
make use of its authority to directly assign CS officers to Shenyang and Chengdu.

D.      Continuity of expertise and staff in China has been problematic

The Commerce mission in China—CS, IA, MAC, BIS—relies on highly qualified personnel
with the expertise to function effectively in China. Lengthy vacancies in some CS, MAC, and
IA positions in China indicate the need for these organizations to improve human resource
planning for these positions.

CS faces challenges in staffing its China operations. CS currently has seventeen officers22
posted to China. Many of these officers have already extended their tours of duty beyond the
standard 2-year rotation, and CS will have to replace nearly three fourths of the officers currently
assigned to China over the next two years. Because China is CS’ largest post, CS will continue
to have many vacancies to fill, including the PCO positions in Shenyang and Chengdu, which
have been very difficult for CS to fill in the past (see discussion above). Developing and
retaining a pool of officers with Chinese language skills and China-specific expertise will be
increasingly important for CS in the coming years.23 According to officers currently serving in
China and others, language proficiency significantly improves an officer’s effectiveness.
Because Chinese can be a difficult language for English-speakers to learn, training officers with
no previous knowledge of Chinese is expensive and time-consuming.24 In order to ensure that it
can meet its future staffing needs in China, CS should develop a comprehensive strategy to train,
recruit, and retain officers with Chinese language skills and China-specific expertise.

MAC and IA have not planned effectively to meet staffing requirements in China. We also
found that IA and MAC have not effectively managed their human resource strategy to ensure
they are continually staffed at post. While neither organization has a large pool of staff serving
overseas, both will have staff in China for the foreseeable future and should plan accordingly.

Two IA positions, the senior import administration officer and the import administration
specialist, remained vacant during much of our review with minimal replacement planning by
headquarters prior to the officers’ departure. The two 3-year assignments began May 2002 and

22
   As of January 2006.
23
   As of November 2005, CS had 34 officers on staff with active proficiency in Mandarin.
24
   According to the State Department, Chinese ranks among the “category B” group of languages that are more time-
consuming for native English speakers to learn (see 13 FAM exhibit 234).



                                                       19
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

August 2002, respectively, and were scheduled to end September 30, 2005. Assignment dates
are intended to allow management to forecast future staffing needs, but IA human resources
failed to announce either of the vacancies until the end of July 2005, which left just two months
to complete applicable diplomatic and language training for the overseas assignment and ensure
continued staffing at the post. According to CS, the senior IA officer is not scheduled to arrive
until March 2006 and the specialist position April 2006, although IA did send a temporary duty
staff person from headquarters to the post.

We found a similar situation with one of the MAC trade compliance positions (TFO director), a
critical position which oversees the entire TFO operation. The former officer was assigned to
China for approximately 2.5 years and left post February 2005. However, it was 8 months later
before the position was finally filled. The lack of contingency planning combined with the
length of the vacancy meant that the TFO staff and the already overburdened CS China
management had to oversee operations. Both MAC and IA need to improve their human
resource planning to minimize future staffing disruptions in China and recruit personnel with
appropriate qualifications.

Recommendations:
We recommend that the Secretary of Commerce take the following actions:
       Develop appropriate management processes and lines of authority to ensure that
       Commerce organizations cooperate effectively in meeting Commerce’s many challenges
       in China.
       Clarify the roles and responsibilities of the special counsel vis-à-vis those of the SCO
       position before appointing a new special counsel to China or any other post.
       Ensure that Commerce bureaus with positions in China develop an effective human
       resource strategy that forecasts future staffing needs and provides a continuous supply of
       qualified officers with adequate China-specific expertise.
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Immediately appoint a qualified officer to fill the PCO position in Chengdu and in the
       meantime, consider the use of a temporary duty officer to cover the post, preferably
       someone who has served in China previously. CS Beijing should also provide closer
       management oversight and support of CS Chengdu until a new PCO arrives.
       Take steps to ensure that staffing gaps in Chengdu and Shenyang are kept to a minimum,
       using inducements and directed assignments as necessary to fill these positions.




In his response to our draft report, the Secretary of Commerce concurred with our
recommendation to develop appropriate management processes and lines of authority to ensure
that Commerce organizations cooperate effectively in meeting Commerce’s many challenges in
China. The Secretary’s response did not address the other two recommendations directed to him



                                                20
U.S. Department of Commerce                                                Final Report IPE-17546
Office of Inspector General                                                           March 2006

but he noted that the International Trade Administration has submitted a comprehensive response
to the findings and recommendations contained in our report. The Secretary also noted that the
Department has made a substantial commitment of resources to address the growing economic
and political importance of China. Specifically, the Department has expanded its presence in
China and worked to ensure that U.S. companies are able to fully leverage export opportunities
and have access to the China market. In addition, the Secretary said that he appreciated our
report’s emphasis on the need to build on and improve the coordination and cooperation between
the staffs of the various bureaus in order to ensure the success of the Department’s programs in
China. To address this issue, the Secretary has asked that the Deputy Secretary chair a quarterly
meeting of the Department’s principal officials who have staff in China. The Secretary further
added that the purpose of the meeting will be to provide a forum for the exchange of information,
to identify emerging issues, and to improve overall coordination of the Department’s China
operations. We appreciate the Secretary’s efforts to see that the Department continues to be
flexible and innovative in its operations to ensure the continued effectiveness of its China
mission.

In its response to our draft report, ITA concurred with our recommendations to improve
oversight of CS Chengdu and address the PCO vacancy there, although the response noted that
the past staffing gaps in Chengdu were due to health and other unexpected reasons rather than
difficulties in filling the post. ITA reported that CS has selected a new officer for CS Chengdu
and has assigned an officer on TDY to Chengdu for one week of each quarter, beginning in
December 2005, pending arrival of the new officer. CS concurred with our recommendation to
take steps to minimize future staffing gaps at CS Shenyang and CS Chengdu.

We are pleased that CS has taken steps to promptly address the management vacancy at CS
Chengdu and improve oversight of that office until the arrival of the new PCO. We anticipate
that these measures will improve operations at CS Chengdu and allow the post to better seize
commercial opportunities in the Sichuan region. CS’ commitment to seek to ensure staffing
continuity at the posts in Shenyang and Chengdu is also welcome, although we encourage CS to
respond more promptly to unanticipated vacancies in the future.




                                               21
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 22
U.S. Department of Commerce                                                          Final Report IPE-17546
Office of Inspector General                                                                     March 2006

II.     The American Trading Center Program is New and Largely Untested

CS is currently implementing its American Trading Center (ATC) initiative25 in 14 major
commercial centers throughout China. At the time of our visit, the most progress on this
initiative had been made in the Shanghai consular district, while many of the other offices were
not yet ready to provide services to American companies. Work remains to build an effective
and complete program. We found that CS will need to closely monitor the efforts of its partner
for the ATC program, the state-sponsored Chinese Council for the Promotion of International
Trade (CCPIT), to ensure that the local CCPIT subcouncils provide quality services to U.S.
companies. While CCPIT has extensive local market knowledge, the promotion of imports from
the U.S. is not one of the organization’s major objectives, and the incentives for local CCPIT
subcouncils to serve U.S. exporters may be weaker than CS has indicated. The limited training
provided to CCPIT staff and CCPIT’s inexperience in promoting foreign imports reinforces the
need for CS’ active and ongoing involvement in the provision of ATC services. Additionally,
we noted that CS staff in both the CS Shanghai and CS Guangzhou offices were confused about
the role of the new personnel hired to support CS China’s trade show efforts.

A.      CS needs to be actively involved in the provision of ATC services to ensure the
        program’s success

CS staff should work closely with the CCPIT local subcouncils to ensure that they provide
quality services to U.S. companies. CS’ limited involvement in the delivery of some of the first
few ATC services has affected the quality of those services. While some ATC customers told us
that CS was actively involved in the ATC service delivery, others described a more hands-off
approach by CS trade specialists and officers. Continued involvement by CS trade specialists
and officers is fully justified both by CS’ revenue collection from the ATC services and CS’
receiving credit for export successes resulting from ATC services.

CS’ initial cooperation with CCPIT is positive but work remains to build the program. CS
hired its first ATC coordinator in Shanghai, and the coordinator and PCO have worked to
develop an effective program in this district. The Consul General (CG) in Shanghai is an
enthusiastic supporter of the program, and has participated in grand opening ceremonies at all
four ATC offices in the Shanghai consular district (Nanjing, Jiangsu Province, Ningbo, and
Hangzhou). With the support of the CG and the PCO, the ATC coordinator has done a
particularly good job of cultivating relationships with the CCPIT staff in these offices. All four
offices have hosted Gold Key services, with the coordinator providing support to the CCPIT
officials who worked directly with the U.S. companies. CCPIT officials in Nanjing and Jiangsu
province were enthusiastic about the ATC program and were eager for more American
companies to participate.26 We spoke with four customers of ATC services in the Shanghai
consular district, and three of the four were satisfied with the services provided by CCPIT.


Table 2: Consular Districts of ATC offices and Initial Services completed
25
   In China, CS refers to this program as the International Partner Network (IPN). CCPIT officials were
uncomfortable in referring to the offices as “American Trading Centers.”
26
   Members of the OIG inspection team visited the Nanjing and Jiangsu Province ATC offices in September 2005.



                                                      23
U.S. Department of Commerce                                                               Final Report IPE-17546
Office of Inspector General                                                                          March 2006

U.S. Consular District               ATC Office                           Number of ATC Services
                                                                          Completed (as of 1/3/06)
Beijing                              Tianjin                              1 (IPS)27
                                     Qingdao                              1 (IPS)
                                     Xi’an                                0
                                     Wuhan                                0
Shanghai                             Nanjing                              2 (GKS)28
                                     Jiangsu Province                     1 (GKS)
                                     Ningbo                               1 (GKS)
                                     Hangzhou                             3 (2 GKS, 1 IPS)
Guangzhou                            Xiamen                               0
                                     Shenzhen                             2 (GKS)
                                     Zhuhai                               0
Chengdu                              Chong’qing                           0
                                     Kunming                              0
Shenyang                             Harbin                               1 (GKS)
                                     Dalian                               1 (IPS)
Source: CS Beijing
Although CS has now completed services at some of the ATC offices in the Beijing, Guangzhou,
and Shenyang consular districts, the program is not as mature outside of the Shanghai district.
CS has hired an ATC coordinator in Guangzhou, and the Shenzhen ATC office completed two
successful Gold Key services in November 2005. However, at the time of our inspection in
September 2005, CCPIT officials from Shenzhen and Zhuhai were meeting with CS officials to
get the program on track, and the ATC network in the Guangzhou district was not yet ready to
service U.S. companies. CCPIT officials from Shenzhen and Zhuhai told us that they had
received minimal ATC program information prior to the initial two-day training session in
Beijing, and were struggling to raise awareness of the program with their local municipal
governments and the CCPIT member companies.

As of January 2006, CS had not yet been able to find a qualified U.S. citizen for the ATC
coordinator position in Shenyang.29 Despite the lack of an ATC coordinator, both of the ATC
offices in the Shenyang consular have provided services to U.S. clients. The program in
Chengdu faces further challenges. As noted earlier, the PCO position in Chengdu has been
vacant for almost a year, and the consulate will not hire an ATC coordinator for the office until
CS has filled the PCO position. During our inspection, the CG in Chengdu expressed his
opposition to the ATC program because he felt that it would be inappropriate for a Chinese-
governmental organization such as CCPIT to conduct trade promotion activities on behalf of CS.
The CG characterized the initiative as shipping the business of CS out to the Chinese
government. Despite these concerns, CS should be able to implement the ATC program in the
Chengdu consular district because the program responds to a legislative mandate and the
program has the support of the Ambassador. The next PCO in Chengdu should coordinate

27
   The International Partner Search (IPS) service is conducted by CCPIT and the results are sent to the U.S.
customer, but the customer does not travel to China.
28
   The Gold Key Service (GKS) involves a series of face-to-face meetings with potential business partners. These
meetings are scheduled by CCPIT and are usually conducted at the potential partner’s offices.
29
   The ATC positions require a security clearance, and thus must be filled by a U.S. citizen. As U.S. citizens, the
ATC coordinators should be perceived as more credible representatives of CS to CCPIT officials.



                                                         24
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

closely with ATC officials in Shanghai and Beijing to implement the program in the Chengdu
district, and should strive to gain the active cooperation of the new CG, who is scheduled to
arrive in June 2006.

CS should ensure that U.S. companies using the ATC network have realistic expectations.
The success of the services offered through the ATC program depends not only on the quality of
the services delivered by CCPIT but also on the preparation of U.S. companies who are using the
ATC services. CS’ ATC coordinators can help to ensure that CCPIT officials deliver quality
services to U.S. companies, but they are not commercial specialists and should not be expected
to provide extensive counseling to U.S. companies. Rather, it is the responsibility of the CS
commercial specialists and officers, either within CS China or within CS’ domestic U.S. Export
Assistance Centers, to ensure that their clients are adequately counseled on how to make the
most of the ATC service.

In at least one recent instance, a U.S. company participating in a Gold Key service in Nanjing
may not have received adequate counseling from CS personnel. CCPIT officials in Nanjing
expressed their concern that this company had unrealistic expectations of what could be achieved
through the Gold Key service—company officials expected to make immediate sales to Chinese
companies and did not come prepared with Chinese-language sales and marketing materials.
While some companies using the ATC services may have experience in the Chinese market, CS
should seek to ensure that all U.S. companies using ATC services have an understanding of the
difficulties of doing business in China and realistic expectations of what the service can achieve.
CS should also ensure that U.S. companies participating in the ATC program are given the
opportunity to use CS’ export counseling services.

CCPIT staff can benefit from CS’ ongoing support. We found that CCPIT personnel possess
detailed knowledge of their local markets. However, few of these personnel were hired to
promote imports from foreign countries or service U.S. companies in China, so they are unlikely
to have the same skills, experience, and knowledge of American business practices as CS
China’s local staff.

CS’ formal training of CCPIT personnel has been limited. CS provided CCPIT personnel with
two days of training in Beijing in July 2005, but this was only a general orientation on CS and
did not include detailed instructions on how to provide Gold Key or other CS services. Thus, it
is important for CS to work closely with CCPIT staff providing initial services to U.S. clients to
ensure that CCPIT personnel fully understand how to assist U.S. companies. The ATC
coordinator in Shanghai worked closely with CCPIT personnel to facilitate the first Gold Key
services in Nanjing and Jiangsu Province, and remains in regular contact with CCPIT personnel
from all ATC offices in the Shanghai consular district. CS should use this training model at the
other CCPIT offices and dedicate time and resources to help ensure that CCPIT staff are
adequately prepared to provide quality services to U.S. exporters.

Three of the seven ATC customers whom we interviewed, who had ordered services from the
ATC offices in Harbin, Qingdao, Tianjin, Dalian, and Hangzhou, told us that CCPIT officials did
not seem to understand their products. While only one was dissatisfied with the overall service,
these customers felt that this lack of understanding hampered the ability of the CCPIT personnel



                                                25
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

to set up worthwhile business meetings or provide useful contacts. While some of these
companies offer very specialized products, the customers felt that CCPIT personnel did not make
much of an effort to understand their products, even though the companies provided specific
product information.

ATC offices need Chinese-language promotional materials. CS has developed a
comprehensive outreach initiative to let U.S. companies know about the new ATC network and
the availability of CS services in the 14 ATC locations. While this outreach effort is essential, it
also important for CCPIT to reach out to the local business community in the ATC network
cities. The local CCPIT subcouncils are responsible for such outreach, but CS could do a better
job of supporting them by providing appropriate Chinese-language reference materials. In our
meetings with CCPIT officials, they specifically requested that CS provide Chinese-language
promotional materials or brochures that could be used to promote the ATC concept to the local
business community and subcouncil members. One CCPIT official commented that, when
calling a local company to set up an appointment for a Gold Key service, the official had to
spend considerable time on the phone explaining the ATC program, and could not provide the
company with any existing reference materials for assistance.

CS should be aware of CCPIT’s limited role in promoting U.S. exports. CCPIT is a state-
sanctioned organization headquartered in Beijing, but its regional subcouncils are relatively
autonomous and receive most of their funding from local and provincial governments. The
subcouncils have extensive and ongoing contacts with local Chinese businesses, detailed
knowledge of the local business environment and local market opportunities, and an ongoing
relationship with local and provincial governments. All of these attributes should make the
CCPIT partnership valuable for American businesses seeking to export to China. However, CS
should understand that promoting U.S. exports is not a priority for CCPIT and CS should remain
cognizant of CCPIT’s many competing interests.

CCPIT’s traditional focus is on promoting foreign investment and facilitating export
opportunities for local Chinese companies. In its promotional materials, the CCPIT Jiangsu
province subcouncil lists as part of its primary objective the expansion of “export trade [from
Jiangsu province] and investment.” The CCPIT subcouncils in Nanjing and Jiangsu province
told us that their goals for the ATC program were (1) to promote business exchanges and
cooperation between local companies and American companies and (2) to facilitate the
importation of advanced technologies from the United States. While these outcomes may
coincide with an increase in U.S. exports, they would also serve to improve the competitive
position of local companies. One U.S. client who recently received Gold Key services in Harbin
and Qingdao noted that CCPIT in these cities organized some meetings with local manufacturers
who were interested in discussing various forms of business partnerships, whereas he had
requested meetings with potential distributors for his products in China. The customer attributed
this to CCPIT’s focus on promoting local business, and noted that CCPIT has not typically been
involved in promoting imports from foreign countries.

Additionally, CCPIT subcouncils do not necessarily have a unique partnership with CS. CCPIT
personnel told us that the organization also maintains relationships with the trade promotion
offices of other countries, several of which have full-time local staff on the ground in Nanjing



                                                 26
U.S. Department of Commerce                                                             Final Report IPE-17546
Office of Inspector General                                                                        March 2006

and Jiangsu Province. CCPIT Jiangsu told us that trade offices from the European Union have
been much more aggressive in Jiangsu province than CS, and that CCPIT Jiangsu supports them
in much the same way as it supports CS. The promotional brochure for CCPIT Nanjing
advertises that it “has established a long-term cooperative relationship with major economy [sic]
and trade organizations from 65 countries including [the] U.S., Canada, France, Germany, Italy,
Japan, and South Korea.”

CCPIT’s focus on attracting foreign investment and promoting Chinese exports is not necessarily
incompatible with CS’ mission of promoting US exports, and its relationship with other
countries’ trade organizations does not necessarily prevent it from providing quality services to
U.S. companies. The differing goals of the two organizations and CCPIT’s relationships with
other countries’ trade organizations, do, however, argue for vigilance from CS to ensure that
CCPIT adequately serves the interests of CS clients through the ATC network.

B.      Refund procedures for dissatisfied ATC customers are unclear

CS initially told us that CCPIT had agreed that it would not be paid for the ATC services unless
the U.S. customer was satisfied with the service received. According to the SCO, this agreement
provides the local CCPIT subcouncil with a financial incentive to ensure client satisfaction. CS
staff later clarified, however, that CS does not withhold payment to CCPIT pending some
indication of customer satisfaction. Rather, U.S. companies who are dissatisfied with the ATC
services can request a refund through the standard CS customer satisfaction refund process,
which measures customer satisfaction through automatically-generated email surveys, and can
take months to gauge customer satisfaction. However, refund procedures for ATC customers are
complicated by the somewhat convoluted payment structure for the ATC services. CS’
agreement with CCPIT calls for CCPIT to receive 40 percent of the usual fee for the Gold Key or
International Partner Search services, while CS retains 40 percent and the American Chamber of
Commerce (AmCham) in Beijing retains the other 20 percent.30 The American company
obtaining the ATC service pays CS, which in turn pays the AmCham for the service performed.
AmCham then pays the CCPIT central committee in Beijing, which is responsible for
distributing the payment to the CCPIT local subcouncil.

As of December 1, 2005, CCPIT had been compensated for all services provided through the
ATC network,31 although CS had not yet received any quality assurance surveys from ATC
customers to determine whether the ATC customers were satisfied.32 Any refunds for
dissatisfied customers will therefore require that CS recover its payments from the CCPIT local
councils through CCPIT in Beijing and the AmCham. However, CS’ memoranda of
understanding with CCPIT and the Beijing AmCham do not specify how CS will recover funds
from CCPIT for any such refunds. CS should clarify procedures with CCPIT and the Beijing
AmCham on how it will process refunds for dissatisfied customers. Lacking such clear
procedures, CCPIT subcouncils will have no financial incentive to ensure customer satisfaction.

30
   AmCham serves as the legal contracting agent for the ATC services.
31
   For the first few services in Nanjing and Jiangsu province, the payments from CCPIT Beijing to the CCPIT
subcouncils were substantially delayed. CS told us that these payment concerns have been resolved.
32
   On January 3, 2006, CS indicated that all ATC customers should have received quality assurance surveys by that
date, but CS had not yet received any completed surveys.



                                                       27
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006


C.     The roles of the ATC trade show staff in Shanghai and Guangzhou are unclear

As part of the ATC program, CS China began a coordinated effort to support U.S. companies’
participation in major Chinese trade shows. While CS offices around the world regularly recruit
U.S. companies to participate in major foreign trade shows and provide discounted exhibition
space as part of a U.S. pavilion, such efforts had been limited in China prior to the ATC
initiative. Until 2005, only CS Shanghai participated in trade show efforts because CS did not
believe that the quality of trade shows in other parts of China warranted CS’ involvement. With
the continuing improvement of Chinese trade shows over time, however, CS has now made a
major commitment to support the involvement of U.S. companies in major trade shows
throughout the country. CS was involved with 38 trade shows in 2005 and plans to support 37 in
2006.

As part of the ATC trade show initiative, CS China hired two staff each in Guangzhou,
Shanghai, and Beijing to support trade show efforts. The China-wide trade show program
receives some degree of centralized management and oversight from an officer and a commercial
specialist in Beijing, but CS Beijing does not monitor the day-to-day work efforts of the ATC
trade show staff in Shanghai and Guangzhou, which are overseen by local managers. At the time
of our inspection, we found that there was confusion among the staff in Shanghai and
Guangzhou as to which trade show support duties were the responsibility of the new ATC trade
show staff, and which were to be handled by the commercial specialists and the officers. This
confusion has led to unnecessary staff frustration and the inefficient use of staff resources as
commercial specialists perform tasks more suitable to trade show staffers, and vice versa.

In Shanghai, we observed that both the ATC trade show staff and the commercial specialists
were uncertain about the role and responsibilities of ATC trade show staff in supporting CS’
trade show efforts. In Guangzhou, where there had been no prior trade show participation, the
new ATC trade show specialists found that some commercial specialists were unwilling to
support their trade show efforts, even though the specialists had industry-specific knowledge and
contacts that would assisted in recruiting trade show participants.

We recognize that CS has developed a checklist outlining the respective roles and
responsibilities of the officers, commercial specialists, and ATC staff in supporting trade show
efforts, but creating such a checklist is not sufficient to address the confusion and tensions we
noted in Guangzhou and Shanghai. In order to address these concerns, CS management should
ensure that CS personnel fully understand the respective roles and responsibilities of the ATC
trade show staff, the commercial specialists, and the officers in supporting CS China’s trade
show efforts. CS management in each office with trade show staff should ensure that all
personnel are fulfilling their responsibilities to support trade show efforts.




                                                28
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006

Recommendations:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Complete the roll-out of the American Trading Centers in the Beijing, Chengdu,
       Shenyang, and Guangzhou consular districts, following the model of the successful ATC
       roll-out in the Shanghai consular district.
       Require CS officers and commercial specialists to closely monitor all services performed
       by CCPIT as part of the ATC initiative.
       Ensure that all U.S. companies using ATC services have realistic expectations of what
       the service can achieve and are given the opportunity to use CS’ export counseling
       services.
       Develop Chinese-language marketing materials for the ATC program.
       Develop clear procedures to process refunds for unsatisfied ATC customers and recover
       funds from CCPIT for any refunds issued.
       Ensure that CS personnel fully understand the respective roles and responsibilities of the
       ATC trade show staff, the commercial specialists, and the officers in supporting CS
       China’s trade show efforts. CS management in each office with trade show staff should
       ensure that all personnel are fulfilling their responsibilities to support trade show efforts.



ITA concurred with most of our recommendations to improve the ATC program and its response
to our draft report described some positive initiatives that CS China is taking to improve the
program. ITA’s response to our draft report indicated that CS China is committed to further
developing the ATC network in the Chengdu and Shenyang consular districts and has already
provided additional training and support to CCPIT staff. More training and continuing support
are expected. The response also indicated that CS is committed to “managing client
expectations” and ensuring that its ATC clients have access to CS export counseling services. In
addition, ITA stated that CS would assist CCPIT in developing Chinese-language marketing
materials for the ATC program. The response further noted that CS China management has
“developed and disseminated a matrix of responsibilities” describing the respective roles of CS
trade specialists, ATC trade show staff, CS officers, and USEACs in supporting CS China’s
trade show efforts.

We welcome CS China’s commitment to hire Commercial Representatives in Shenyang and
Chengdu, its efforts to provide additional training for CCPIT staff, and its commitment to
provide counseling for ATC clients. Such efforts should help to ensure quality service delivery
for U.S. companies using the ATC network. We encourage CS to discuss these initiatives in
more detail as part of its action plan, particularly its commitment to ensure that ATC clients have
access to counseling by CS officers and trade specialists. We also welcome the commitment of
CS management to clearly define the roles of CS officers, trade specialists, ATC trade show
staff, and USEACs in supporting CS’ trade show efforts.




                                                 29
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

In response to our recommendation that CS develop clear procedures to process refunds for
unsatisfied ATC clients, ITA reported that CS China’s procedures for processing such refunds
“are in accordance with [CS’] overall guidelines for providing refunds and addressing the claims
of dissatisfied clients.” ITA’s response also emphasized that providing refunds is procedurally a
“last resort” for addressing client dissatisfaction, and CS will work with a dissatisfied client to
determine if additional CS services or counseling can be provided. ITA further notes that CS has
not yet been asked to process such a refund. On this latter point, our report notes that, as of
January 2006, CS’ customer relationship management unit had not independently verified
customer satisfaction for any of its ATC clients. Our report also notes that the payment structure
for ATC services is unique, and CS’ standard reimbursement procedures are not adequate.
Because CS only retains 40 percent of the user fees paid for ATC services, CS must either
develop a process to recover the remainder of the user fees from CCPIT and the Beijing
AmCham or commit to reimbursing 100 percent of the user fees even if it cannot recover its
partners’ shares of these fees. Therefore, we request that, in its action plan, CS clearly define its
procedures for reimbursing user fees for dissatisfied ATC clients and clarify the extent to which
it relies on financial incentives to ensure the quality of CCPIT’s service delivery.




                                                 30
U.S. Department of Commerce                                                            Final Report IPE-17546
Office of Inspector General                                                                       March 2006


III.    CS Should Evaluate the Future Direction of the Commercial Center Program

The commercial center in Shanghai opened in July 1996 and was one of four commercial centers
created under the Jobs Through Exports Act of 1992.33 Six trade partners are currently collocated
with the CS office in Shanghai as part of this program. CS originally anticipated that
cooperation with these collocated partners would bolster CS’ export promotion efforts by
leveraging trade promotion resources. The Shanghai center has successfully brought several
U.S. trade promotion organizations to China that might not otherwise have been able to open a
full-time office there. While the collocated partners have added to overall efforts to promote
U.S. exports, the program has not achieved the anticipated substantial synergies because there is
limited cooperation between the partners and CS. Additionally, CS has done little to promote
and market the commercial center and its trade partners. CS should maximize the value of the
commercial center by improving communication and collaboration with its trade partners and
promoting the center and its services to CS’ customers. Because two out of the original four
centers have closed and the remaining centers may be affected by planned CS office moves into
U.S. consulate compounds in the future, CS management in headquarters also needs to determine
its long-term strategy for the entire commercial center program.

A.      CS anticipated that cooperation between CS offices and commercial center partners
        would create synergies

The Jobs Through Exports Act of 1992 called for the creation of U.S. commercial centers in
Asia, Latin America, and Africa. CS opened commercial centers in São Paulo, Brazil (April
1994), Jakarta, Indonesia (November 1994), Shanghai, China (July 1996), and Johannesburg,
South Africa (March 1998), although the São Paulo and Jakarta commercial centers have since
closed. The legislation creating the commercial centers anticipated that they would provide
additional resources for promoting U.S. exports and would help familiarize U.S. exporters with
the industries, markets, and the customs of the host countries.

At the time the commercial centers were established, CS touted the program as a tangible way to
focus attention on developing trade in the big emerging markets34 and expanded the commercial
center concept to include the collocation of federal, state and private sector trade partners with
CS personnel. Collocation with trade partners is a unique feature of the commercial centers and,
according to CS, one of the most important operational aspects of the program—sharing the
same space with other trade partners allows CS to conduct operations jointly, facilitate
cooperative efforts, leverage trade promotion resources, integrate service delivery, and share the
costs of operating the commercial centers.


33
  15 USC § 4723a.
34
   The Big Emerging Markets (BEMs) are those that ITA believed held the greatest potential for dramatic increases
in U.S. exports and included the Chinese Economic Area (China, Hong Kong, and Taiwan), India, South Korea,
Mexico, Brazil, Argentina, South Africa, Poland, Turkey, and the Association of Southeast Asian Nations
(Indonesia, Brunei, Malaysia, Singapore, Thailand, the Philippines and Vietnam). At the time the commercial
centers were established, the BEMs were a priority of the Administration and the Department.




                                                       31
U.S. Department of Commerce                                                              Final Report IPE-17546
Office of Inspector General                                                                         March 2006

While the collocation of CS and its trade partners cannot guarantee better export assistance to
U.S. companies, the commercial center concept does provide the opportunity for closer ties and
better communication between CS and its trade partners and additional resources to help promote
U.S. exports.

B.      The Shanghai Commercial Center has brought trade partners to China but has not
        created many synergies

The tremendous potential of the Chinese market has created a strong demand for space in the
Shanghai Commercial Center. All of the center’s available space is occupied, despite CS’ recent
rent increase. The convenience, cost savings, and legal advantages35 provided by the commercial
center have allowed six trade partners to open offices in China who might otherwise be unable to
have a full-time presence there. All of these partners have a role in promoting U.S. exports to
China, and the center has thus been successful in furthering CS’ mission to promote U.S.
exports. The current six commercial center trade partners (also called cooperators), all of which
have been with the commercial center for at least five years, include the State of Illinois, the
State of Washington, the State of Michigan, the City and County of Denver, the Association for
Manufacturing Technology (AMT), and the Packaging Machinery Manufacturers Institute
(PMMI).36

Because the commercial center concept envisioned close collaboration between CS and the
partners, we would have expected to find regular contact and coordination between CS and its
collocated partners. However, both during our post inspection in 199837 and our current review,
we found that the coordination between the partners and CS was neither particularly close nor
mutually supportive. We noted that the partners’ operations appear to be generally distinct and
separate, with only infrequent coordination with CS staff and management.

Interviews with the partners indicate that although they are generally pleased to be in the
commercial center and in China, they do not feel that they are considered to be part of the CS
Shanghai team. With the notable exception of AMT38, the partner organizations do not interact
frequently with CS Shanghai management and staff. The partners noted that they used to be
invited to the commercial section’s staff meetings, but approximately a year or two ago that
stopped. As a result, they are often unaware of projects and initiatives that CS is working on,
which hampers their ability to coordinate their efforts with CS. The PCO, the director of the
commercial center (effectively the deputy PCO), and the deputy director of the commercial

35
   It can be difficult and costly for small operations to establish a legal presence in China. Being part of the
commercial center allows the partners to overcome some of these legal barriers. For example, when the Shanghai
center opened in 1996, it was the only vehicle for U.S. states to open representative offices in China. These
prohibitions certainly fueled the demand for space in the commercial center. There are still some hurdles for U.S.
states to overcome in registering as independent entities in China, but it is easier than it was in the past.
36
   There have been other partners collocated in the commercial center since its inception, such as the State of
Maryland, but they have since moved out.
37
   US&FCS China Is Meeting the Demands of Its Clients, but Internal Operations Need Attention, IPE-10915,
September 1999.
38
   We noted that there is frequent interaction and coordination between the AMT representative and the CS officer
responsible for machine tools and his team of commercial specialists. Such interaction and coordination is a good
example of the type of cooperative relationship the commercial center concept envisioned.



                                                        32
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

center (a locally-hired American) agreed that CS had limited interaction with the commercial
center partners, but that they were not planning any substantive changes. The PCO told us that
he would consider including the partners in CS staff meetings again. He was unsure when or
why that participation was stopped, but saw no reason why the partners should not be included.

The partners also noted that they are required to submit quarterly activity reports to CS detailing
the number of clients counseled, number of products (Gold Keys, etc.) delivered, number of
trade events and trade missions, and number of export successes. We found, however, that CS
has largely ignored these reports, even though the information in them might help CS identify
efforts that would benefit from increased collaboration. CS Shanghai managers agreed that CS
has little interest in the information in the partners’ quarterly reports. They felt that the most
important information contained in the reports—the export successes—are usually reported to
CS through other means. They stated that since not all partner export successes qualify under the
requirements in the CS Operations Manual, CS cannot take credit for many of the successes
reported in the quarterly reports. Given this information, we question why CS is requiring the
partners to submit the information in the first place and suggest that the post assess the
continuing need for the quarterly reports or mutually decide on a reporting arrangement that
would strengthen cooperation between CS and the partners.

There also seemed to be a general consensus among many CS staff, both officers and FSNs, that
the partners were not routinely sharing export successes, even when CS might have provided
some value-added assistance. Just like the partners, many CS staff felt that the relationship was
one-sided and not cooperative. Each side (the partners and CS) views the relationship in terms
of what they can get from the other, instead of what they might be able to accomplish if they
worked together as a team. The partners want new computers, high-speed Internet access, and to
be included in staff meetings, while CS wants the partners to better share and report their export
successes. CS’ limited interaction with its partners has prevented the development of the closer
cooperation and the synergies that CS initially envisaged when it opened the commercial center.
CS Shanghai should improve communications with its partners and renew efforts to cooperate
effectively with them.

C.     CS should consider the future direction of the commercial center program

In the decade since the implementation of the commercial center program, there have been
numerous changes in CS management and two of the four original commercial centers have
closed. Over time, headquarters support for the program appears to have eroded. At present,
there is no one person or office responsible for overseeing the program. This contrasts starkly to
the large, multi-unit management team that was directing the program at its inception. At that
time, headquarters officials had significant responsibilities for coordinating and implementing
the commercial centers’ marketing plans, recruiting collocated partners, and tracking other issues
relevant to the centers, such as performance measurement. With only the Shanghai and
Johannesburg centers still operating, the program now lacks any type of centralized headquarters
support, and responsibility for the centers has been moved to the responsible OIO regional office.
In the case of Shanghai, the deputy director of the East Asia and Pacific region is responsible for
negotiating and signing the memorandums of understanding with the partners. However, the




                                                33
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

regional offices have little time to address commercial center issues and the posts has been left to
define (and redefine) the commercial centers as CS officers come and go on regular rotations.

Without support from headquarters, the responsibility for recruiting partners or promoting
services offered by the centers is left up to each post’s discretion. While recruiting partners is
not necessarily an issue for the Shanghai Commercial Center right now, it could be in the near
future if current partners require additional space and move out of the commercial center.
Recruiting partners is certainly an issue for the Johannesburg commercial center, which has
additional, unoccupied space for partners.

CS Shanghai receives no headquarters support in promoting and marketing the center’s services.
No CS website mentions either the commercial centers in Shanghai or Johannesburg or CS’
collocated partners. CS Shanghai has no marketing plan or printed marketing materials to
inform existing or prospective clients about the commercial center and its services, although the
services of the Shanghai Commercial Center are briefly mentioned in CS’ Contact China
booklet, which is a resource guide for U.S. companies seeking to do business in China. CS
headquarters and the post should work together to develop appropriate bilingual materials to
market the center in both the U.S. and China to exporters who could benefit from the services of
both CS and it collocated partners. Additionally, the marketing materials can highlight the
Shanghai Commercial Center’s sizable conference room space that can be rented by U.S.
companies, on a cost-recovery basis, for events and product or company promotions. Currently,
potential renters rarely hear about the space unless a CS officer or commercial specialist happens
to mention it.

The CS offices in Shanghai and Johannesburg are scheduled to move into the new consulates
planned for those cites in 2008 and 2009, respectively, but it is likely that the date of the
Shanghai move will be extended since a suitable site for the new consulate has not yet been
identified. While these dates are not firm, the anticipated office moves complicate CS’ planning
for the commercial center program. The partners will not be able to move with CS into the U.S.
diplomatic compound. When faced with this same situation in São Paulo, CS chose to close the
commercial center rather than keep the commercial section out of the consulate.

CS management should evaluate the future direction of the commercial center concept and take
appropriate action based on the results. For example, if CS determines that the commercial
centers continue to provide value, it should take steps to maximize that value by providing
marketing or promotional materials to support the centers. In addition, CS must also decide
whether it will try to keep the centers open even after new consulates are built or plan for their
eventual closure. Without guidance and direction from headquarters, the Shanghai Commercial
Center (and likely the Johannesburg center too) will continue to languish as a concept of the
1990s that has been all but forgotten in the new century.




                                                 34
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

Recommendations:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Assess the need for the quarterly reporting requirement for the Shanghai commercial
       center’s partners or work with the partners to decide on a reporting arrangement that
       would enhance cooperation.
       Maximize the value of the commercial center in Shanghai by improving communications
       and collaboration between CS and the partners, and promoting and marketing the services
       of the commercial center in both the U.S. and China.
       Evaluate the future direction of the commercial center program and take appropriate
       action based on the results.




In responding to our draft report, the Deputy Under Secretary for International Trade outlined
several initiatives to improve the operations of the Shanghai commercial center. These actions
meet the intent of our recommendations. Specifically, ITA stated that it agrees with our
recommendation to assess the reporting requirements for commercial center partners. It will
develop changes in the reporting requirements, in consultation with the partners. In the short
term, CS will eliminate the quarterly report, which was characterized as an irritant to the partners
and of limited value to CS management. The response to our draft report also stated that the
relationship between CS and the partners is not as distant as the OIG described—the post always
refers potential clients for the partners and frequently assists with VIP visitors from the partners’
organization. However, to further increase collaboration and cooperation, the post agreed to
resume including the partners in general staff meetings and will add appropriate language and
linkages to the CS China website. With regard to the future direction of the commercial center
program, ITA stated that CS is considering adding one or two partner states to the current
representation at the center. However, given its limited personnel and budgetary resources, CS
has no plans to revolutionize its approach to the functions and purposes of the commercial
center. In fact, ITA states that when the commercial section in Shanghai is brought back into a
new consulate building in approximately three years, CS expects to discontinue operation of the
commercial center.




                                                 35
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 36
U.S. Department of Commerce                                                        Final Report IPE-17546
Office of Inspector General                                                                   March 2006

IV.     Export Success Reporting, CS’ Critical Performance Metric, Continues to be a
        Recurring Problem

CS’ primary performance goal is to “expand [the] U.S. exporter base.” Measuring progress
toward that goal relies on verified numbers of export transactions facilitated by CS among new
and existing U.S. exporters. We found CS China, with the exception of its Shanghai office, has
few verification procedures in place to support its claimed performance results, which show
yearly increases. Nor did we find that new quality control and verification measures taken by CS
and ITA to ensure effective performance-measure oversight have been successful in ensuring
adequate support of CS China’s performance data.

Our analysis of 126 export success stories for CS China shows that approximately 44 percent
were not adequately supported by written documentation. Documentation and success story
verification issues are not new. This is a recurring problem that the OIG has noted in its last 3
CS overseas post inspections—CS Turkey,39 CS Greece,40 and CS India41—and its review of the
Pacific Northwest USEAC network.42 Before performance statistics are presented to Congress
and OMB, CS must confirm they are reliable and meet the reporting guidelines outlined in the
CS Operations Manual. However, the guidelines in the manual are not specific enough to
provide adequate guidance on maintaining supporting documentation of the export success
stories prepared by CS trade specialists.

A.      CS China has reported significant increases in its export success stories over the last
        two years

The CS Operations Manual specifies the actions necessary to claim an export success, which it
defines as both (1) an actual, verified export sale or other significant export-related benefit to the
U.S exporter and (2) a CS value-added service that significantly facilitated the export success.
The CS Operations Manual goes on to list eight definitions of actions that can be claimed as
export-related benefits and requires that any export success story must be reported within 2 years
of the client’s export-related benefit and within 3 years of CS’ value-added assistance (see
Figure 4).




39
   The Commercial Service Needs to Improve Management of its Operations in Turkey, March 2003, IPE-15370.
40
   Generally Sound Operations at Commercial Service Greece Are Compromised by Key Weaknesses, September
2003, IPE-15804.
41
   Commercial Service India: Challenges Remain for Management of a Large and Economically Diverse Post,
September 2004, IPE-16808.
42
   Pacific Northwest USEAC Network Generally Operates Well, but Export Success Reports Need More
Management Scrutiny, March 2004, IPE-16507.



                                                    37
U.S. Department of Commerce                                                          Final Report IPE-17546
Office of Inspector General                                                                     March 2006


Figure 4. The 8 export-related benefits that qualify as an export success
  • An actual, verified export sale, lease, or rental of U.S. goods or services.
  • An export-related agreement such as an agency distribution agreement, joint venture
    arrangement, licensing agreement, franchise, etc.
  • Opening an overseas office or other forms of substantive overseas investment that directly
    support a client’s U.S. export activities (e.g., a regional sales office).
  • Avoidance of financial loss or other significant harm to a client’s U.S. export activities as a result
    of direct intervention of CS staff or programs.
  • Removal of a market access barrier (such as standards, regulations, testing and certification),
    whether or not an export sale immediately follows.
  • Resolution of an export trade complaint.
  • Purchase of U.S. education by foreign students.
  • Obtaining foreign publicity for a U.S. travel/tourism client.
  Source: CS Operations Manual, FY 2005
In addition, once CS reports an individual client’s export success story, the agency is prohibited
from claiming additional success in that market unless it documents new and different value-
added assistance. The export success narrative must include all these elements and illustrate a
clear link between CS assistance and the reported benefit to the U.S. exporter, and each should
be clearly documented in the narrative to demonstrate the validity of the export success story.

CS China’s reported numbers of export successes indicate a growing demand for CS products.
The post reported a rise in export successes from 236 in FY 2003 to 544 in FY 2005, an increase
of 131 percent. In fact, CS China’s performance target for fiscal year 2005 was 527 export
success stories, and it exceeded that by 17 successes, or 3 percent. At that rate, it is reasonable to
expect the post’s export success numbers are likely to continue rising as China opens its markets
and U.S. exporters capitalize on emerging opportunities.

Figure 5: CS China’s Reported Export Successes

     600
     500
     400                                                                          544
     300                                            460
     200
     100              236
       0
                     FY 2003                      FY 2004                       FY 2005

Source: e-Menu, CS, January 2006

B.         CS China, with general exception of CS Shanghai, is not following CS guidelines for
           verifying export successes

During our inspection, we selected a 20 percent random sample from each post (a total of 185
export successes from fiscal years 2004 and 2005) to determine CS China’s compliance with CS’


                                                     38
U.S. Department of Commerce                                                                Final Report IPE-17546
Office of Inspector General                                                                           March 2006

export success guidelines.43 We first sent satisfaction surveys to each client in our sample to
verify the information in the export success narratives and assess CS China’s performance. Of
the 185 clients surveyed,44 we received 32 responses and only two expressed dissatisfaction with
the quality of service received from CS China, both stating timeliness as the primary issue. The
remaining 30 respondents either stated they were “very satisfied” (22), or “satisfied” (7); one
provided mixed comments about the adequacy of CS’ services.

We then performed our own “spot-check” and reviewed CS China’s supporting documentation
for all 185 export success stories during our onsite inspection. We found that four of the five
offices—CS Beijing, CS Chengdu, CS Guangzhou, and CS Shenyang—in most cases, had
maintained little or no documentation to support the client’s export benefit or its dollar value, or
CS’ value-added assistance. As a result, we could not verify the facts of the majority of CS
China’s claimed export successes or determine whether they complied with CS guidelines.

CS Shanghai, by contrast, maintains a central file for all its export success stories and the
corresponding documents to support the information in the narrative reports, such as emails and
letters from the client. The deputy PCO said all export success stories reported and approved by
CS Shanghai require separate documentation as verification and these documents are then
reviewed as part of his approval process. In fact, CS’ export success quality control officer says
Shanghai is “unquestionably” the “shining star among these posts.” We did find some instances
where CS Shanghai’s documentation did not verify all the elements contained in the narrative
(dates or dollar values), and a few export successes that did not have any documentation
(because the post did not author the export success), but overall, we found the Shanghai office
files are reliable and well-organized, and it maintains an efficient review process.

We discussed our findings with the SCO and he acknowledged the post generally does not
maintain or review separate documentation to support the narrative report prepared by a trade
specialist for each export success story. The SCO argues that CS guidelines do not “require”
separate documentation but merely suggest staff obtain the information if possible. Instead, the
post relies on the second-level review process—CS’ export success quality control officer—to
ensure each report is accurate and held to the highest standard. However, CS Operations Manual
says the first-level reviewer (CS officer, SCO, or USEAC director) is responsible for spot-
checking the accuracy of the export successes, including reviewing the background files and
contacting the client. The quality control officer confirmed this process and told us that as a
second-level reviewer, it is not realistic for him to validate the facts of each export success
because the first-level reviewer knows the facts and has verified the details. Instead, he reviews
the written narrative to identify duplicate stories and grammatical errors.

It appears the SCO is not ensuring that a thorough first-level review is done at the post. Any
“spot-check” performed at the post probably would not include a review of documentation, with
the exception of CS Shanghai, because the SCO does not require CS China to maintain
documentation—so there are no files to review. It also appears that the first-level reviewers do
not regularly call clients to reconfirm the accuracy of the export successes given limited time and
resources. Outside of reading export success narratives and occasionally speaking to the authors
43
     The OIG stratified the sample by post and industry.
44
     We could only contact 171 clients because of missing contact information in the export success.



                                                           39
U.S. Department of Commerce                                                      Final Report IPE-17546
Office of Inspector General                                                                 March 2006

during the routine approval process, most officers don’t do any other required spot checks,
thereby minimizing any internal controls.

C.        CS guidelines and export success reporting have been a recurring issue in OIG post
          inspections

Documentation and success story verification issues revealed during OIG’s recent inspection of
the CS China post are not new. This is a recurring problem that OIG has noted in reports on other
CS overseas posts, as well as some U.S. export assistance centers. CS had promised corrective
action and revised its reporting guidelines to try to address this issue when we raised it
previously.

When we reported similar problems in our report on CS India, CS recognized it needed to
enhance its guidelines and require accountability to ensure the validity of its reported
performance results. CS published new language in its CS Operations Manual (valid until April
1, 2005) and told us that it held training sessions to inform staff of new requirements that all
success stories should have accompanying documentation showing CS assistance. The new
manual language stated:

          “Each success must be documented to verify the information the company has provided.
          This documentation can take the form of a memo to the file of a conversation with the
          company, an email, some posts/EAC’s have forms companies fill out. There are no
          specific requirements just that some record that verifies the communication of the
          success. This is prompted by recent IG recommendations.”

According to the former Deputy Assistant Secretary for Office of International Operations,
before an export success can be approved, there should be verification documentation. In her
performance measure guidance,45 she specifically stated each post must keep an office file of
export successes with verification documentation. This clearly indicates that separate
documentation is required to validate each export success; first the manual states that an export
success author or the CS post should maintain a record that verifies the company’s
communication of the success and the information it provided (CS’ value-added assistance
facilitated a benefit to their company) and then the former Deputy Assistant Secretary’s guidance
further adds that each post must maintain independent documentation.

However, on April 1, 2005, CS updated its operations manual and provided conflicting guidance.
In section VII, Maintaining Client Records, the revised manual states that the primary record is
the actual export success and it should include enough information to support the exporter’s
success and how CS assistance supported the claim. The manual still requires each export
success be directly confirmed with the client but the updated version loses the former Deputy
Assistant Secretary’s original interpretation and now says, “It is recommended that written
confirmation from the client (letter, fax, email, etc.) be obtained if possible,” further adding that
confirmation from the client only needs to be recorded in the narrative. However, section IX of
the manual, Writing the ES Narrative, does not list client confirmation under its “essential

45
     OIO DAS Guidance: Implementation of New Performance Measures, FY 2004, eMenu.



                                                     40
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006

components” of a narrative, while section X, Reviewing/Approving ES Reports, goes on to state
that the export success author is responsible for confirming and clearing the export success with
the client and maintaining appropriate support documentation (emphasis added). The current
guidance does nothing to clarify the documentation requirement but instead provides conflicting
guidance left up to the post’s or a USEAC’s interpretation.

Some current CS managers in headquarters argue that the guidelines never required written
documentation and simply suggest that a telephone conversation or other verbal communication
with the client is sufficient to support an export success. However, we believe the intent of the
CS Operations Manual, in both the 2004 and 2005 versions, is clear that written documentation
should always be maintained; and relying on a client confirmation in the narrative is only
acceptable in those few cases where extenuating circumstances make it impossible to get written
confirmation from the client. We further note that during our inspection of CS China’s
narratives, we only found approximately 78 narratives in a sample of 126 that actually attempted
to include some reference to the client’s confirmation. In addition, as mentioned previously, in
late 2004, CS reported to OIG that it informed all CS staff, including SCOs, that each export
success must be documented and that the first-level reviewer should be using this information
during his or her spot-checks. Realistically, if supporting documents are indeed not available,
recording the client’s confirmation of the reported benefit and CS assistance provided in the
narrative may be appropriate, but this confirmation should also be supported by CMS records or
other documentation of the CS assistance provided and its link to the export success. However,
we believe written verification from the client, such as a letter, fax, or email, confirming the
details of the narrative (not just the sale) is a record that can be used by the approving officer, or
other quality control official, for spot-checks to confirm claims of export success.

D.     OIG sample shows nearly 44 percent of CS China’s export success stories were not
       verifiable

After the OIG’s onsite inspection found that very few export successes had independent support
or were adequately verified by the first-level reviewer other than in Shanghai, we gave the post a
second opportunity in October 2005 to contact a smaller sample of clients (126 of the original
185) and obtain documentation to support the information in the narrative. Since the manual
states “each ES must be directly confirmed by the client or the client’s customer…verifying the
details of the success,” we asked CS China to provide the OIG with verification from its clients
to support the elements in the export success: CS value-added assistance facilitated a benefit to a
U.S. exporter and the reported dollar value, if applicable. In response to our request, the SCO
complained that obtaining this documentation would require an extreme amount of effort and
time, and that “we are being retroactively held to a higher standard of documentation than we
were at the time the success story was recorded.” However, we note there were only 20 export
successes in our sample that were reported under the new guidelines (i.e., after issuance of the
April 1, 2005 guidelines, under which the SCO claims the export success is the primary record
and any additional documentation is not required).




                                                  41
U.S. Department of Commerce                                                                 Final Report IPE-17546
Office of Inspector General                                                                            March 2006

Table 3. OIG methodology for verifying CS China’s export successes
      OIG Finding                                           Definition
                       The post and/or CS HQ could provide written verification* from the client that
                       confirmed the following 6 points to a high degree of certainty: (1) CS value-
      Verified         added assistance (2) occurred within three years and (3) significantly
                       contributed to (4) a firm benefit to the U.S. exporter (5) within two years and
                       (6) a claimed dollar value, if applicable.
                       The post and/or CS HQ could not provide written verification from the client
  Partially Verified
                       that confirmed each of the above 6 points that would verify an export success.
                       The post and/or CS HQ could not provide written verification that confirmed
 Unverified or Invalid
                       any of the above 6 points, OR the ESS did not qualify under CS guidelines.
*The export success narrative does not qualify as written verification of itself.
Source: OIG and CS Operations Manual, FY 2005

Our second review confirmed 40 of 126 export successes based on additional documentation
provided by the posts. However, we could not adequately verify 86 (68 percent) of CS China’s
export successes, either because of missing or inadequate documentation provided by the post.46
Fifty-two of the 86, valued at more than $403 million, did not have any supporting
documentation and were unverifiable. At least 14 of these were not authored by CS China but
the post still could not provide, at a minimum, some type of documentation that verified its own
value added assistance.47 At least 30 of the 86 export successes were only partially verified
because the post did not have documentation that supported one or more elements of the
narrative, such as the actual reported success or the assistance provided by CS China.48 The post
provided some reports that documented CS’ counseling efforts, such as a record of a
conversation with the client or copies of generic emails notifying CS China that they were
credited by another office, but these were not detailed enough to serve as documentation of CS
China’s value-added assistance or whether the counseling was linked to the export success. For
example, the email might state “This is a courtesy email, generated by eMenu, informing you
that a new Export Success has been compiled into the eMenu Performance Measures Repository
which may be of interest to you.”

On January 27, 2005, OIG notified the Deputy Director General of the U.S. and Foreign
Commercial Service that we could not verify at least 60 percent of CS China’s export successes,
and he subsequently asked his staff to follow up with CS China’s clients a third time and directly
confirm and document the elements of the export success. The regional director of the East Asia
and Pacific region and his staff were assigned to follow-up and attempted to confirm the 82 of
the 86 export successes we identified that were partially verified or unverified.49 Their calls to
clients and other follow-up successfully verified another 30 export successes in addition to the 40
already verified by the post’s documentation, but they could not provide full support for 30, and

46
   This includes several export successes for which the post did not have adequate documentation but which were
already confirmed by the companies responding to the OIG survey.
47
   This does not include the export successes for which the post did have some documentation for its contribution
toward export successes submitted by a USEAC or a different post.
48
   This does not include 4 export successes for which the post did have some documentation but which the OIG
found invalid.
49
   The OIG identified an additional 4 export successes that were invalid prior to this third survey and did not request
CS provide additional information



                                                          42
U.S. Department of Commerce                                                            Final Report IPE-17546
Office of Inspector General                                                                       March 2006

could not provide any support for 10 because in several cases the company was no longer in
business or CS’ contact was no longer with the company. We also identified 12 invalid export
successes, in addition to our previously mentioned 4, that did not meet CS guidelines as a valid
export success.

                  Table 4. OIG’s verification of CS China’s export successes
                                                  Post's
                                                              CS' HQ Review as
                                             Documentation as
                                                               of February 24,
                                              of January 12,
                                                                    2006
                                                   2006
                                                #          %          #           %
                          Verified             40         32%         70        55%
                      Partially Verified       30         24%         30        24%
                         Unverified            52         41%         10        8%
                          Invalid*              4         3%          16        13%
                                    Total      126        100%       126        100%
                  *This includes 4 export successes the OIG identified as invalid and did not
                                   request further documentation from CS.

One of export successes that the regional director and his staff found was unverified stated that
the U.S. company won a contract to supply $2 million worth of equipment to a Chinese metro
project. But, CS found the U.S. contact information was invalid, indicating no follow-up with
the client, the information on the company’s website did not correlate to the details in the
narrative, and CS could not verify a signed sales contract for this project. Also during its follow-
up, CS regional staff identified several export successes they originally questioned because visa
assistance was claimed as the primary service without any pending sale. According to the CS
Operations Manual, visa assistance can only be claimed as an export success if it directly
supports an export sale or signed agreement. CS should consider revising the CS Operations
Manual to ensure it specifically identifies scenarios under which visa assistance qualifies as an
export success, such as if CS is contacted primarily for visa assistance that results in a sale or
export benefit. The following are examples of three export success that OIG found to be invalid:

   •   CS performed due diligence for a U.S. company pursuing a Chinese partner and as a
       result of CS’ findings decided not to pursue the partnership. CS guidelines state “An
       Export Success may not be claimed under this category for cases in which a client elects
       not to fill an export order, appoint an export rep, etc. on the basis of feedback from…CS
       assistance.” Under this rule, the reported success should be removed.
   •   A U.S. company, in cooperation with a Chinese university, opened a healthcare testing
       center in 2001. However, the CS Operations Manual states “an ES must be reported
       within two years of the export sale, contract signing, or other qualifying benefit to the
       exporter” and thus disqualifies this export success.
   •   CS China reported free foreign publicity for a financial services industry client.
       According to CS, the “ad equivalency” export success, or free foreign publicity, only
       applies to travel and tourism clients and has not been approved for any other industries.




                                                     43
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

In summary, CS’s primary performance measure must have appropriate checks and balances to
ensure accuracy and reliable reporting. Even with additional documentation provided by CS
headquarters, we ultimately found that 56 (44 percent) of 126 CS China export successes could
not be adequately supported by written documentation and remained partially verified or
unverified. And, 26 of the 56 export success stories did not have any support or did not meet the
criteria for a valid export success. The current verification system, both internal and external,
leaves much to be desired.

E.         Discrepancies in CS China’s reported export success dollar values reveal little or no
           client verification

CS China reports dollar values for its export successes but is unable to verify the specific amount
through documentation or confirmation from the client. For example, the post reported five
export successes for one company with a total value of $1.456 billion. 50 Two of these, each
valued at $12 million, were reported as what is known as ‘close the deal’ successes, where
Chinese company officials traveled to the U.S. and attended training. This training was
reportedly required to take possession of the equipment. The total sale value had already been
claimed in a separate export success, so training and travel to the U.S. alone could not possibly
be valued at $12 million. The post could provide only one document to support any of the five
reported successes: a letter from one of the Chinese buyers requesting the embassy assist with
visas for staff to attend training in the U.S. This document shows CS likely provided visa
assistance, but it does not help the post support its reported $1.456 billion worth of export
successes.

Client feedback in our OIG survey revealed further dollar value discrepancies. The survey listed
several dollar ranges for each client to estimate the value of its export sale resulting from CS
assistance. Four companies reported the value of their export success was less than the value CS
claimed, while seven companies reported the value of their export success was greater than the
value CS claimed. Our calculations show CS overstated its export successes by $2.3 million (see
Table 3).




50
     We note only three of these five export successes were in our sample.



                                                           44
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006


       Table 5: Export Success Dollar Value Discrepancies Between CS and CS’ clients
                                            Over Reported
            Export Success     Reported in Survey         Claimed by CS     Discrepancy
                  1             $10,000 to $100,000           $120,000           $20,000
                  2               No Export Sale              $388,500          $388,500
                  3            $100,000 to $500,000          $3,500,000       $3,000,000
                  4               No Export Sale                $3,000            $3,000
                                                        Total Over Reported ($3,411,500)
                                           Under Reported
            Export Success     Reported in Survey         Claimed by CS     Discrepancy
                  1             $10,000 to $100,000            $1,200             $9,000
                  2             $10,000 to $100,000               $0             $10,000
                  3           $1 million to $5 million         $36,298          $964,000
                  4            $100,000 to $500,000            $60,000           $40,000
                  5               $10,000 or less                 $0             $10,000
                  6             $10,000 to $100,000               $0             $10,000
                  7            $100,000 to $500,000            $80,000           $20,000
                                                       Total Under Reported   $1,063,000
                                                       TOTAL Discrepancy ($2,348,500)
          Source: e-Menu, CS and OIG survey of CS China’s clients

During our inspection, the export success quality control officer revised several of the post’s
export success dollar values based on second-level review. Specifically, CS China over reported
one export success by $360 million—the quality control officer changed the success from $1.3
billion to $1.04 billion. The quality control officer found CS China also under reported two
additional export successes by $924 million. They were revised from $96 million to $768
million and $36 million to $288 million, respectively.

F.     CS’ quality control procedures do not adequately assure veracity of reported
       performance results

The CS Operations Manual holds only the author of the export success story responsible for
“ensuring the accuracy and integrity of all ES [export success story] content, compliance with all
ES Guidelines, confirmation and clearance of the ES by the client, and maintenance of
appropriate support documentation.” However, section VII, Maintaining Client Records, states
all CS employees who have direct contact with clients should maintain accurate and complete
counseling records in CMS, in addition to hard copies of key communications to and from the
client. Despite conflicting language, the manual seems to suggest that only the export success
author is responsible for maintaining documentation even if other posts or U.S. Export
Assistance Centers (USEACs) participated in the export success. But regardless of where
authorship originates, an office receiving credit for “significant” value-added service should
confirm its role through supporting documentation.

As stated previously in this chapter, the approving officer, or first-level reviewer, is responsible
for “spot-checking” the accuracy of the export success narrative through telephone calls to


                                                   45
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

confirm success claims with clients and a review of background files. The first-level reviewer is
also responsible for applying good judgment as to whether the export success is reasonable
before approving it as part of the post’s official reporting statistics. However, there are no clear
requirements on how and when these spot-checks must be performed. For example, we found no
CS China officers were reviewing supporting documentation for the export success narratives,
with the exception of CS Shanghai which reviewed documents it kept in a separate file, and no
first-level reviewers appeared to be following up with clients to ensure the export success
narratives were qualified representations of what actually occurred. This was largely because the
SCO did not require his staff keep any supporting documentation.

As noted above, the second-level reviewer—the quality control officer in the U.S.—is supposed
to regularly sample export successes from all offices to ensure compliance with the CS
Operations Manual. This review should identify deficient export successes—not in compliance
with how to write an export success—and is intended to train staff on correct procedures to
follow in preparing export successes. According to the quality control officer, he relies on the
first-level reviewer to verify the details of the export success since that person is in a better
position to understand the chain of events. The quality control procedures currently in place,
combined with inconsistent guidance on maintaining documentation, render the review process
essentially null and do not ensure true internal controls. The export success story author is left as
the primary responsible party for ensuring the validity and confirmation of each of his or her own
export successes.

Responsibility for the veracity of CS’ primary performance measure should not rest exclusively
on the shoulders of the author of an export success story. To ensure the integrity of CS’
performance statistics, each post should be required to provide adequate documentation of the
assistance provided and obtain written verification from the client confirming the export benefit
and CS’ value-added assistance and that it played a significant role in the success. As provided
on occasion by CS Shanghai, this could be an email to the client with the export success
narrative cut and pasted into the body of the email text, requesting verification that the details
provided are an accurate reflection of the export success. Simply providing an invoice or a
general thank you note does not indicate CS provided significant value-added assistance nor does
it confirm dates or dollar values, or CS’ association to the reported success. Because of this
systematic problem, CS’ and the department’s performance and accountability reporting is
unsubstantiated and unreliable.

Recommendations:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China’s and all CS export success
reporting:
       Revise the CS Operations Manual to include clear and precise requirements for written
       documentation and verification of each element of an export success, including written
       verification from the client confirming CS assistance, and the reported benefit to the
       exporter, the date of the success, and any reported dollar value, and inform all staff of the
       changes.




                                                 46
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

       Enhance the first- and second-level review process for export successes to include
       specific requirements, such as frequency, sample size, and follow-up guidance, to ensure
       a reliable verification, quality control, and oversight program.
       Require each individual and office receiving credit for an export success to maintain
       documentation that supports the claim of significant value-added assistance.
       Revise the CS Operations Manual to ensure it specifically identifies scenarios under
       which visa assistance qualifies as an export success, and when it does not.
       Remove the invalid CS China export successes from CS’ database.



Commercial Service concurred with most of our recommendations to ensure CS’ primary
performance metric provides reliable performance data and adequately represents its programs
and services. However, in response to our recommendation to revise the CS Operations Manual
and include clear requirements for written documentation for each element of an export success,
CS stated it “does not anticipate any change in this guidance,” except for visa facilitation
services, even though it agrees that “more precise requirements are needed.” CS reported that it
will maintain the CMS record as the primary documentation, and it should be supplemented by
other documents, including core service participation agreements, Gold Key Service schedules,
IBP delegation lists, and International Partner Search reports as necessary to establish the linkage
between service provided and benefit to the exporter. ITA’s response also noted that CS does
plan to revise its export success reporting form which will “reinforce these ES record-keeping
requirements.” Senior CS management reportedly approved recommendations made by CS’
Performance Measures Advisory Group and will implement them “in the near future.” Based on
these recommendations, the export success record will include a mandatory verification field and
cannot be approved by a reviewing supervisor unless one of the approved verification options is
satisfied.

CS maintains that the proposed verification and approval procedures for export successes should
provide more accountability. The first requirement will reportedly ensure all facts in the export
success story have been substantiated by CMS records with supplementary documentation
required to establish the linkage between CS’ value-added service and the benefit to the exporter.
This should provide adequate support for CS’ value-added service. The second requirement
provides four verification methods and the author of the export success must choose one of them
and then the approving official must review file documents supporting the designated
verification procedure. The following verification options are available:

   1. Draft ES approved by the client including facts of transaction, year of sale and
      transaction value;
   2. Written confirmation of ES authored by client, including facts of transaction, year of sale
      and transaction value;
   3. ES verification in person or by phone contact with client and recorded in CMS;
   4. Copies of original transaction documents including contracts, purchase orders, sales agent
      agreements.



                                                47
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006

We found three of the four options provide adequate accountability. However option number 3,
“ES verification in person or by phone contact with client and recorded in CMS,” does not
provide the same level of documentation requirements as the other three options. Specifically, it
should also require that the client confirm the facts of the transaction, year of sale and transaction
value and then this information should be recorded in CMS. While this method does not
guarantee confirmation from the client in writing, it does provide more detail than previously
required. The lack of documentation that we found for many claimed export successes during
our current review, as well as in prior post inspections, indicates the need for more stringent
requirements to support CS’ export success performance data.

CS concurred that its administrative controls should include specific requirements for periodic
verification by the first-level reviewers and stated that future guidelines will “require first-level
supervisors to randomly select and review ten percent of the ESS…no later than the end of the
following quarter of the fiscal year.” The future guidelines will also require supervisory review
of all export successes valued at $100 million or more. CS management reports that this review
will include a call to the client and a review of export success file documentation. While this
procedure will be an improvement upon the current verification procedures, it does not provide
internal controls for those export successes for which the supervisor had direct involvement.
This should also be addressed in the future guidance.

In response to our recommendation that CS require each individual and office receiving export
success credit to maintain documentation that supports the claim of value-added assistance, CS
reports that the Client Relations Management System, which is expected to replace the existing
CMS record-keeping system in 2007, will provide domestic and overseas ITA staff with the
option to view all client activity leading up to an export success. While CS reports individuals
claiming credit for being involved in the delivery of a core fee-based service will still be required
to maintain records, it is important that all individuals participating in an export success justify
their involvement in order to receive credit. The CRM system should be an improvement for
communication and record-keeping purposes but does not meet the full intent of our
recommendation because some CS staff or offices receiving credit for export successes may not
have direct interaction with the client and therefore may not document their significant value-
added assistance in the CRM System.

In conclusion, CS management concurred with OIG’s designation of 16 of CS China’s export
successes as invalid and agreed to remove them from CS databases by April 30, 2006. We
acknowledge CS’ further effort to clarify export success guidelines at the upcoming Senior
Commercial Officer conferences, however the core problems we identified occurred in large part
because of the lack of clarity and specificity of the guidelines themselves. Without including in
the CS Operations Manual clear and precise requirements for written documentation and
verification of each element by the client, we anticipate that CS will continue to report
performance data that is not reliable to the Secretary, Congress, OMB, and others. For that
reason, we request that ITA and CS revisit its decision to not revise CS’ export success reporting
guidance and requirements, as outlined in the CS Operations Manual.




                                                 48
U.S. Department of Commerce                                                                Final Report IPE-17546
Office of Inspector General                                                                           March 2006


V.         CS China’s Products and Services Satisfy Most of Its Clients

CS has multiple products and services to help U.S. exporters reach the global market, including
customized market research, trade events, international partner matching, and one-on-one
counseling. During fiscal years 2004 and 2005, CS China provided clients more than 600
products and services.

We reviewed customer surveys performed by both OIG and CS’ customer relationship
management (CRM) unit to determine if these efforts met the needs of U.S. exporters. In
addition, we reviewed CS China’s market research reports (planned and unplanned) to gauge the
quality of the post’s written products. We also reviewed the marketing materials CS currently
uses to reach prospective U.S. exporters to China and expand its potential client base. We found
the post’s efforts are satisfying most of its clients but it should continue to monitor the quality of
its products and services.

A.         Customer surveys show satisfaction with most of CS China’s products, but some
           services need management attention

CS offers several products and services to assist U.S. exporters either entering the global market
or expanding overseas. CS relies on quality products and exceptional customer service as its
primary tools for leveraging the business of small, medium, and large-sized companies and
meeting its client’s expectations. Posts tailor products and services to best fit the requirements
outlined in the client’s participation agreement (see Table 6).51

Table 6: CS China’s Product and Service Descriptions
For the Product and Service:                  CS China will:
                                              Identify and arrange appointments with key players in the
Gold Key Service
                                              Chinese market.
                                              Support the U.S. company’s long-term exporting goals
Platinum Key Service
                                              with ongoing assistance.
International Buyers Program                  Promote major U.S. trade exhibitions to Chinese buyers
                                             Locate, screen, and assess potential qualified overseas
International Partner Search
                                             sales representatives.
                                             Report on potential business partners to help reduce risk
International Company Profile
                                             to the U.S. company
                                             Prepare customized market research designed to fit the
Customized Market Research
                                             needs of the U.S. company.
Source: www.buyusa.gov/china/en/programs

We surveyed 132 CS China clients and found 27 of the 33 respondents were satisfied to highly
satisfied with the service they received. Of the remaining six respondents, three clients gave
unsure or dissatisfied opinions of CS China, and three clients reported they were very dissatisfied
with their overall experience One of the three very dissatisfied clients stated “follow through

51
     A participation agreement documents the services CS will provide to the client for the recorded amount due.



                                                           49
U.S. Department of Commerce                                                              Final Report IPE-17546
Office of Inspector General                                                                         March 2006

was slow and painful,” while another stated “I just can’t believe that … [the] U.S. consulate can
employ such a rude person.” The third client was dissatisfied with the quality of the Gold Key
service meetings. The client said CS provided a list of meetings one day prior to the scheduled
appointments, but the list did not meet the customer’s requirements. By that time, it was too late
to suggest any changes.

We also reviewed the client surveys performed by CS’ CRM unit in fiscal years 2004-05. In
those surveys, 10 of the 169 respondents52 expressed dissatisfaction or extreme dissatisfaction
with CS China’s products and services, while the remaining 159 were generally satisfied with the
service they received. While overall rather insignificant, 50 percent or five of the 10 dissatisfied
clients were specifically unhappy with the Gold Key service.53 One in particular was a former
U.S. Assistant Secretary of State who utilized the services of CS China and expressed concern
over the quality of the product, stating “Having known from first hand experience…of the
potential high value the services of the CS can provide, we were very disappointed in the 1)
weakness (boiler plate) of the outsourced CMR [Customized Market Research] and 2) the
lateness of the product(s) delivery.”

Table 7: Gold Key service and the extremely dissatisfied comments received by
         CS’ CRM in FY 04-05
             FY
Product                 Location                                  Comments
            Year
 Gold
 Key
            2004     Guangzhou       “Worst experience I’ve had with DOC.”
Service
(GKS)
 GKS        2004     Guangzhou       “Not happy with the meetings,” “waste of time.”
 GKS        2004     Guangzhou       Post “did not take [this] seriously enough.”
                                     “Very poor communication,” “totally inflexible on dates,”
     GKS    2004      Shanghai
                                     “basically a disaster and a waste of our travel time and money.”
                                     Meetings were not in the client’s industry and client was not
     GKS    2004      Shanghai
                                     sure it will use GKS again.
Source: eMenu

To demonstrate its responsiveness to displeased customers, either CS headquarters or the SCO
issued refunds in fiscal year 2005 for 16 of 397 (4 percent) products and services.54 According
to CS, justification for a refund includes: (1) an accounting adjustment; (2) client cancels
participation prior to CS expending any funds; (3) the post could not process the request due to a
high-priority event or other competing demand; (4) service failed to meet delivery requirements,
as defined in the participation agreement; or (5) other extraordinary circumstances which justify
a refund.55 Our review of CS China’s refunds revealed the post provided these 16 performance-


52
   Two additional platinum key service responses are not included.
53
   Customers also expressed dissatisfaction with CS China’s Customized Market Research (1), International
Company Profile (2), and International Partner Search (2) products and services.
54
   This includes all active, cancelled and completed products and services.
55
   CRM does not consider accounting adjustments, client cancellation, or political and economic implications to be
factors in determining CS’ level of customer service.



                                                        50
U.S. Department of Commerce                                                                   Final Report IPE-17546
Office of Inspector General                                                                              March 2006

based refunds for untimely delivery of the service, incomplete service, and inability to deliver the
product due to competing demands.

Overall, it appears that CS China is meeting the needs of most of its clients, but it should review
the reasons for dissatisfaction among some clients and address them. In addition, if CS
implements the next phase of its full cost recovery plan to meet the Office of Management and
Budget’s (OMB) Circular A-25,56 exporters to China could see a 122 percent fee increase for
Gold Key services and price hikes for other CS products and services. According to CS China
staff, they are concerned that many small and medium-sized companies may not then be willing
to pay for or able to afford CS China’s products and services. When prices rise, customer
satisfaction is critical to maintaining a strong customer base. Clearly, CS China will need to
enhance its levels of customer service to make sure they are satisfied.

B.       CS China cannot meet ITA’s demand for market research

CS has two new market research products, planned (formerly Industry Sector Analysis) and
unplanned (formerly Industry Market Insight) market research. The new reports are designed to
be more responsive to client needs and market developments. Instead of long broad industry
reports, the new planned research reports are five- to ten-page reports, requested by ITA units,
that contain industry information and critical facts for a U.S. exporter to gain a better
understanding of the market. The new unplanned market research reports will be developed by
OIO staff in the field and provide timely information on narrow topics. These new reports will
be short one- to seven-page reports prepared at a post’s discretion in response to market
developments.

ITA also has adjusted how it determines the number of planned market research reports each
post must complete. ITA components request a specific number of planned market research
reports and then the SCO is permitted to accept as many of these he feels the staff can reasonably
complete. ITA reported 300 requests for research products from CS China, an indication of the
growing demand for information on China. However, CS China only accepted a goal of 72
planned market research reports for calendar year 2005 and completed 70, or 97 percent. In
addition, the post provided 26 unplanned market research reports to the business community,
giving them timely information on hot topics. Several staff noted they were unsure they could
meet their goal because of other work priorities and, in their opinion, unreasonable timeframes.

We reviewed 48 planned and unplanned market research reports to assess the quality of the
research and the staff’s English language proficiency in written materials, based on concerns CS
officers noted during our interviews with them at the post. The reports included most of the
recommended elements for market research as set forth by ITA, with two of the 48 reports
written in a confusing mix of English and Chinese. Two may seem like an insignificant number,
but this reveals some reports are not being thoroughly reviewed and do not represent CS’

56
   Circular A-25 calls for agencies to collect user fees to cover all direct and indirect costs associated with services
that “convey special benefits to recipients beyond those accruing to the general public.” CS planned to implement
stage two of its full cost recovery plan on October 1, 2005. However, the Senate and House appropriations
committees exempted CS from Circular A-25 for FY 2006. As a result, it is unclear if and when CS will have to
implement full cost recovery.



                                                           51
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

professional image. As will be noted in chapter VI, although officers reported they review and
edit market research reports multiple times to ensure the best possible product, at least two
slipped through. Each officer is responsible for the quality of the market research and
grammatical accuracy of all reports in his or her industry sector. CS officers should better
review market research to ensure all reports meet ITA’s recommended guidelines for market
research.

C.     Other CS materials for prospective U.S. exporters to China are readily available

Given the importance of the China market, CS has developed several other means to provide
information and assistance to U.S. exporters specifically interested in this market. This outreach
extends beyond CS China and USEAC services, but is also useful to the post and domestic
network. The China Business Information Center (CBIC) is a worldwide web portal for U.S.
companies looking to do business in China and represents one of several new CS-wide China
initiatives that benefits U.S. exporters. The CBIC web site (www.export.gov/china) offers
numerous resources to help companies face challenges in the Chinese market. The site includes
frequently asked China questions and an “Are You China Ready” guide for those new to the
Chinese market. The web site also features links to multiple U.S. government projects of
interest, including the China intellectual property rights advisory program, STOP Fakes, and a
list of best prospect industries.

CS China also maintains its own web site www.buyusa.gov/china/en, which is in both English
and Mandarin and is a tool to reach the Chinese market. The web site provides specific
information on CS programs in China including, the American Trading Centers, electronic
publications such as the country commercial guide, an Olympics 2008 “hot sheet”, free market
research, and a host of other trade-related publications.

CS recently began distributing Commercial News USA in Mandarin. The catalog-style magazine
is designed to assist U.S. companies promote their products and services to buyers in more than
145 countries. The magazine is distributed bi-monthly and is also
available online. The Mandarin edition includes translated descriptions of
American companies offering products and services in various industry
sectors.

The Contact China 2005 handbook is another example of CS’ effort to
reach out to prospective U.S. exporters to China. Marketed as “a resource
guide for doing business in the People’s Republic of China,” Contact
China 2005 provides valuable and compact information on CS’ industry
contacts and commercial information for companies looking to explore the
Chinese market. Some of the topics covered in the handbook include, how
the Commercial Service can help you, how the Embassy can help you, best prospects for each
industry, useful websites, U.S. export controls, and key contacts in various professional service
sectors.

To further reach U.S. exporters, several of CS’ domestic U.S. export assistance centers have
sponsored special workshops or information sessions on China trade. For example, the



                                                52
U.S. Department of Commerce                                               Final Report IPE-17546
Office of Inspector General                                                          March 2006

Philadelphia USEAC held an Exporting to China: Seizing Opportunity and Managing Risk
conference in May 2005, which gave local businesses the opportunity to hear about trends in the
Chinese market. Officials from the Department and business community presented information
on customs and logistics, export controls, and protecting intellectual property, and a private
sector panel discussed the “dos and don’ts” of doing business in China. Given the complex
nature of doing business in China, CS should explore similar opportunities to reach out to local
companies and bringing together different business leaders to share their experiences in the
China market.

Recommendations:

We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Evaluate the reasons why some CS China services are not meeting the needs of some
       clients and address them.
       Improve CS officers’ review process for market research to ensure all reports meet ITA’s
       recommended guidelines.




In response to our draft report, ITA noted that the level of dissatisfaction with the Gold Key
service, as reported in our finding is “remarkably low,” although it reported that CS has worked
with CS China to improve the timeliness of its handling of requests for Gold Key and other
services. We agreed with this comment and made some adjustments in the report and
recommendation so as not to imply that the level of client dissatisfaction with the Gold Key
service was more significant than it was. CS management also agreed with our
recommendations to improve its review process for market research. Specifically, CS
recognized the need to improve CS China’s coordination of Gold Key services with the USEACs
and has since implemented new procedures introduced by CS’ Customer Management Unit. The
product enhancement program is designed to improve communication and coordination between
CS China, the USEACs, and CS’ clients. CS management also agreed that CS China’s market
research process is a concern and ITA stated that CS will ensure that individuals approving
market research will more carefully review the reports in the future. ITA also reported that the
new market research production guidelines, released by the Deputy Director General in February
2005, should standardize the process and provide consistency in report format. In addition, CS
expects its new market research planning and tracking tool, released November 2005, should
address some of the difficulties encountered in the market research planning process. ITA’s
response also noted some inaccuracies in our report with regard to our description of CS China’s
research production and the types of CS market research. We made adjustments to the body of
the report to reflect these clarifications.




                                               53
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 54
    U.S. Department of Commerce                                                                Final Report IPE-17546
    Office of Inspector General                                                                           March 2006

    VI.       Human Resource Issues Should Be Addressed to Maximize Commerce’s
              Effectiveness in China

    CS China’s success largely relies on its human resource capabilities and its ability to effectively
    utilize those resources and adequately plan for the future of Commerce operations in China.
    Adequate language training for Commerce’s foreign service officers and foreign service
    nationals is critical to effective communication at the post and with U.S. exporters. Similarly,
    the complex nature of business in China requires that CS staff have in depth knowledge of
    industry sectors in order to effectively service U.S. exporters. In addition, CS should evaluate its
    officer staffing level in Guangzhou to determine if any adjustments are needed.

    A.        Commerce’s foreign service officers need language and industry sector training

    Commerce’s foreign service officers need to be trained to effectively communicate with the
    Chinese government and business community. Understanding Mandarin Chinese (Mandarin)
    will also help them to effectively relay critical information to the U.S. export community. The
    U.S. Department of State’s Foreign Service Institute provides a language proficiency rating scale
    in the Foreign Affairs Manual57 that is based on tests in two skill areas: speaking and reading.
    All foreign service officers are tested and evaluated against this scale (see Table 9).

    Table 9: The Foreign Language Proficiency Rating Scale
 Level            Skill Level                                               Description
   0        No Proficiency            Unable to function in the spoken language.
  0+        Memorized Proficiency     Able to satisfy immediate needs using rehearsed phrases.
                                      Able to satisfy minimum courtesy requirements and maintain very simple face-to-
    1       Elementary Proficiency
                                      face conversations on familiar topics
            Elementary Proficiency,   Able to initiate and maintain predictable conversations and satisfy limited social
   1+
            Plus                      demands.
                                      Able to satisfy routine social demands and limited work requirements. May have
            Limited Working
    2                                 some difficulty understanding native speakers in situations that require specialized
            Proficiency
                                      or sophisticated knowledge.
            Limited Working           Able to satisfy most work requirements with language usage that is often, but not
   2+
            Proficiency, Plus         always, acceptable and effective. May miss cultural and local references.
                                      Able to speak with sufficient structural accuracy and participate in most formal
            General Professional
    3                                 conversations. May restrict the professional contexts to matters of shared
            Proficiency
                                      knowledge.
          General Professional        Able to satisfy professional needs in a wide range of sophisticated and demanding
   3+
          Proficiency, Plus           tasks.
          Advanced Professional       Able to fluently and accurately engage on all levels normally pertinent to
    4
          Proficiency                 professional needs.
          Advanced Professional       Proficiency is regularly superior in all respects, usually equivalent to that of a well
   4+
          Proficiency, Plus           educated, highly articulate native speaker.
    5     Functionally Native         Proficiency reflects the cultural standards of the country where the language is
          Proficiency                 natively spoken.
Source: 13 FAM 222.2




    57
         See 13 FAM 222.2.



                                                            55
U.S. Department of Commerce                                                                    Final Report IPE-17546
Office of Inspector General                                                                               March 2006

The Assistant Secretary and Director General of the U.S. Commercial Service, in consultation
with the Chief of Mission, is responsible for determining what CS positions require language
proficiency and what level of proficiency is required.58 Most of the CS China officer positions
are designated at a level 2/1 language proficiency for speaking and reading. We reviewed the
language proficiency scores for CS’ 15 officers59 and found all demonstrated at least a limited
speaking (level 2) and elementary reading (level 1) in Mandarin. Only six officers tested at the
professional level 3/3+ to advanced level 4+/5 for both skills (see Figure 6).

       Figure 6: CS China Officer’s Mandarin Proficiency Levels (0-low to 5-high)

               8                               8
               7                                                                           7
               6
               5
               4                 4
               3                        3                                 3
               2                                                                  2             2
               1             0                       0                1
               0
                                     Speak                                    Read

                    Level 5/5+          Level 4/4+       Level 3/3+           Level 2/2+            Level 1/1+

       Source: e-Menu

According to the proficiency scale, proficiency at levels 2/2+ and 3/3+ demonstrates an officer
can satisfy most work requirements, but an officer’s effectiveness can be adversely impacted at
below the 3+ level. Commerce officers in China must comprehend complex political and
economic discussions, but the mission must rely on only four officers with advanced proficiency
in both speech and reading to handle matters in the Chinese language. Considering the
importance of communicating with local dignitaries and participating in complex discussions,
understanding the nuances of Mandarin is critical to an effective mission.

CS officers also participate in language training to acquire the necessary language skills prior to
arriving at the post or to enhance their current proficiency. According to FAM, foreign service
officers who do not have the required level of language proficiency should attend language
training prior to assuming post duties. But it does not specify any length of training that is
required. If the officer does not test at the required level by the end of the language training, the
officer is expected to continue training at the post until the required proficiency is reached.

While the FAM does not require any specific length of language training for officers on their
second or third posting, it does set a benchmark of 24 weeks for officers on their first assignment
that do not have a tested proficiency of 2/2. We found 9 CS officers who tested below level 3 for
either speaking or reading. Of these, 4 received an average of only 8 weeks of language training

58
     13 FAM 221.
59
     As of September 2005.



                                                          56
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

prior to arriving at the post, while 5 received a minimum of 24 weeks. A large number of
officers told us that the training they received was not enough to prepare them to effectively
participate in technical discussions or understand the idiosyncrasies of the language—some of
the most important elements to facilitating trade promotion in China. Several officers said they
had to terminate their planned training early or never had an opportunity to attend language
training because of early assignments. Regardless of their proficiency level, CS officers could
benefit from lengthier training and more opportunities for refresher training to be effective in
their roles.

CS China officers also are responsible for promoting specific industry sectors such as aerospace,
medical equipment, and information technology and could benefit from more industry-related
training. Several CS officers told us that they are eager to have industry training to enhance their
understanding of the Chinese markets and be better equipped to communicate industry trends to
the US business community. CS headquarters does offer industry training for its officers to
supplement daily experience gained on the job. But we found only three CS China officers
attended industry seminars covering coal and power, the Export-Import Bank, and petroleum and
gas. CS China does not make training a priority for its officers when the opportunities to attend
training are available. The post should encourage more professional development despite the
heavy workload and immediate demands at the post.

CS China officers also reported that they would like to have additional training in standards and
intellectual property rights. As mentioned previously, there is an IPR attaché and a standards
liaison in China, but they have limited resources. The large contingent of CS officers at post
could provide a greater impact in IPR and standards if appropriate training were available to
them. One of the major initiatives outlined in the Secretary of Commerce’s May 2004, report
titled “Standards and Competitiveness: Coordinating for Results, Removing Standards-Related
Trade Barriers Through Effective Collaboration,” included plans to provide basic training on
standards and conformity assessment to CS domestic and overseas officers, FSNs, MAC, and
M&S specialists. In FYs 2004 and 2005, the ITA standards liaison in headquarters coordinated
general standards training for CS staff, but at the time of our review did not expect to continue
the program in fiscal year 2006 because of funding limitations.

However, on our return from China, the new NIST director told us that he would be willing to
have his staff provide additional standards training for CS officers and other ITA staff. ITA
should evaluate its current effort to train staff on basic standards-related issues and IPR and
should more fully utilize both NIST’s and USPTO’s expertise.

B.     FSN staff require training in English writing, industry sectors, and U.S. business
       practices

CS China has a total of 89 FSNs and personal service agreement (PSA) staff, the most of any CS
post. The post needs to invest in these employees and develop their abilities to better service
U.S. exporters. During discussions with CS China staff and a review of the post’s market
research reports and products, we identified several areas where increased training might benefit
CS operations and improve customer satisfaction.




                                                57
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

As noted in chapter V, in reviewing the quality of CS China’s research products, we found at
least two reports that did not meet ITA’s recommended guidelines for market research. CS
China’s local staff is responsible for writing many of the post’s research reports. Several officers
told us they and their staffs often have to revise market research multiple times because of the
poor language usage. CS China’s staff needs better English language skills to write clear and
grammatically correct market research reports and reduce the amount of time spent on report
review and revision. The post should consider investing in more English writing courses for its
staff.

The CS commercial specialists and commercial assistants also need some technical or industry
expertise. Staff members said they occasionally consult experts outside of CS rather than relying
solely on internal expertise but they would also like to have more first-hand knowledge of major
industry players, be able to follow market trends, and be prepared to counsel clients on business
strategies and understand U.S. business practices. Some FSNs or local staff have been able to
gain some technical expertise and knowledge of basic U.S. business on the job, but they also
move between industries frequently. As such, additional industry training and basic business
courses, such as private sector conferences and seminars, should help provide FSNs acquire the
necessary skills to independently consult with a U.S. exporter and improve customer service.

C.     Computer-aided job evaluation should result in some FSN grade increases

Computer Aided Job Evaluation (CAJE) is a worldwide job evaluation tool the State Department
is currently using to review and revise the current FSN position classifications and grade levels.
CAJE is used to objectively review the content of each job based on several factors, including
job responsibility; the knowledge, skills and abilities required to perform the job; the level of
interaction with others; and the work environment. If the CAJE review determines the position
classification is inaccurate or out-of-date, the position classification will be revised taking into
consideration reorganizations or technological advancements to reflect any discrepancies
identified during the review.

As a result of the CAJE review, CS China anticipates grade increases for some FSN staff. One
CS China post anticipates increases for as many as five positions. Such upgrades, and
potentially others throughout CS China, could dramatically impact the post’s budget and thus its
future operations. CS headquarters must allocate sufficient funds to cover FSN staff upgrades
imminent in China.

D.     The second officer position in Guangzhou needs to be addressed

For the last 3 years, CS Guangzhou has only had one officer covering what had traditionally
been a two-officer post. According to the acting Consul in Guangzhou, the area represents a
huge market and seizing opportunities now will pave the way for U.S. exporters in the future.
The Guangzhou consular district services four provinces, an area in excess of 200 million people.
CS reports this region houses some of China’s richest cities and is fueled by its proximity to the
Hong Kong Special Administrative Region. In addition, CS reports the concentration of people
within the area has led to an increased initiative to develop transportation infrastructure such as
roads, bridges, and mass transit facilities.



                                                58
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006


In 2002, a commercial officer assigned to CS Guangzhou was scheduled to arrive at the post for
a regular tour of duty. However, just prior to departure to post, the commercial officer was
reposted to a vacant position in Beijing and a new junior officer position was created in Shanghai
as the result of an internal reallocation of resources. Since then CS has not pursued a second
officer for the post. To relieve the strain of a one-officer post, the current PCO adopted the
concept of a deputy PCO. He restructured the office so that an FSN with more than 11 years of
CS experience could fill the role of a “quasi” commercial officer. However, the FSN cannot
perform many of the responsibilities restricted to officers. For example, the consular section will
only accept visa referrals from a commercial officer. When an officer is out of the country on
home leave, CS Guangzhou is restricted from performing any visa referrals, which lengthens the
process for many potential applicants. CS Guangzhou is also actively pursing the ATC initiative.
Many of the responsibilities, include managing the relationship with CCPIT and leading the new
trade show initiative, all which will require time away from the office and managing the regular
day-to-day activities. CS plans to place one of three new IPR attachés funded by USPTO in CS
Guangzhou. However, this position will most likely focus on IPR-related issues rather than
traditional export promotion and may not provide the type of assistance for a region of this size.
An additional commercial officer could relieve the PCO of some responsibilities and step in
when necessary to ensure critical tasks are administered in a timely manner. We understand that
many CS posts have only one officer, but reevaluating the second officer position should be
considered for the overall effectiveness of the post and the demands of the entire U.S. mission in
Guangzhou.

Recommendations:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Evaluate CS China’s current language designations to determine their adequacy.
       Provide extended Mandarin language training to CS officers prior to their arrival at the
       post, and provide time for in-country language training, as needed.
       Provide periodic industry team training to ensure it effectively leverages staff resources.
       Provide regularly scheduled English writing, industry and U.S. business practice training
       to the FSN staff to improve customer service.
       Ensure financial resources will be available to fund the staff position upgrades indicated
       by CS China’s CAJE results.
       Address the officer vacancy in CS Guangzhou and determine the future status of the
       position.
       Develop a regular standards and IPR training program in cooperation with NIST and
       USPTO and ensure that CS officers and other staff attend the training.




                                                59
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006




The Deputy Undersecretary for International Trade, in responding to our draft report, concurred
with most of our recommendations in this section of the report and outlined some actions taken
or planned to address our concerns. However, ITA took issue with our questions about the
adequacy of language training and language designations for CS China officers. ITA reported
that the review of language designations by proficiency level takes place periodically and
involves both the SCO and headquarters staff. The response noted that CS China’s language
designations, reviewed most recently in the Spring of 2005, reflect a consensus that a 2/1
language score, achievable in a minimum of 24 weeks for an individual without significant prior
proficiency, is adequate for most positions at post. However, the response also notes that
officers with this proficiency require assistance from native speakers among post staff for all
professional interaction with Chinese nationals.

ITA further maintains that the limited universe of CS officers and pool of officers who bid on an
assignment to China inevitably constrain CS’ ability to provide more extensive language training
and require CS to have its own language policy which differs from that of the State Department,
as outlined in the Foreign Affairs Manual. ITA notes that CS provides a maximum of one year
of language training to CS China officers. CS has agreed to investigate the cases cited in our
report of current officers at post who received an average of only 8 weeks of language training
prior to the start of their CS China tour. If those cases are accurate, CS stated that it will make
every effort to ensure that this lapse in training does not happen again.

We understand the difficulties that CS faces in assigning officers to China, and we recognize its
reliance on some incoming officers who already have attained a high level of proficiency in
Chinese rather than training officers without Chinese-language skills and bringing them to the
desired level of proficiency. However, the pool of Chinese-speaking officers is limited and
given CS China’s workload and the additional demands placed on its officers, relying on local
staff in this capacity neglects other duties required at the post. In addition, current CS China
officers firmly believe that some of their language abilities were limiting their performance.
Thus, we believe the minimum language designation should be reevaluated. We also recognize
the difficulties of filling vacancies in China and the urgency to get new officers to post. Hence,
CS should ensure ongoing in-country training is available and that time is allotted for officers
with inadequate language skills to take the training instead of just relying on a select few officers
with the highest level of proficiency.

The USPTO response to our recommendation that CS develop a regular standards and IPR
training program, in cooperation with NIST and USPTO, outlined several initiatives currently
underway or planned in the near future. Specifically, USPTO stated that last year, the USPTO
and the State Department jointly organized a two-day “primer” on China’s intellectual property
issues. The program was intended for foreign service officers going to China and other DC-
based USG officials, but USPTO reported few officers attended the seminar. USPTO plans to
make the program an annual event and already has scheduled a seminar for June 15-16, 2006.
USPTO further suggested that CS China’s annual “All Hands Meetings” would be an appropriate
venue to provide IPR training to all CS China staff or such training could be provided during a



                                                 60
U.S. Department of Commerce                                                Final Report IPE-17546
Office of Inspector General                                                           March 2006

visit to post by USPTO officials. Finally, USPTO recognized that when USPTO IPR attaches
are fully operational on the ground in China, USPTO intends to have them interacting with CS
officers on a regular basis, coordinating on IPR issues, and attending the commercial section’s
staff meetings.




                                               61
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 62
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

VII.   CS China is Challenged by the Growing Number of Visitors

China’s growing economy and its expanding trade with the United States prompts many business
or trade organizations, congressional staff, state governors, mayors, and other high-ranking
government officials to travel to China on trade missions or commercial delegations. In 2005,
CS China co-hosted 219 major events, including more than 50 trade missions. CS officers and
staff are nearly always required to provide logistical support for these events, which reduces
resources available for some of CS’ core products and services. CS does a tremendous job of
accommodating its visitors and organizing events, and, of course, many trade missions and
delegations involve Gold Key services and often bring in new clients for the post. But several
improvements could help CS manage visitors and events more efficiently, such as evaluating its
logistical support for major events and visits to ensure the most efficient use of resources,
reporting events to CS headquarters through CS’ eMenu, and recovering all costs it incurs in
supporting certified trade missions.

Supporting official visitors requires a major commitment of CS staff time. CS staff devote a
substantial amount of time and effort in developing agendas for official visitors; arranging hotels,
transportation, and other logistical support issues; and accompanying visitors to meetings and
other events. In order to ease the burden on CS officers and trade specialists, CS should evaluate
its current coordination processes to provide logistical support for these types of events and
ensure the most efficient use of resources. Support for high-level delegations will always require
the involvement of officers, but more efficient use of staff resources, such as the delegation of
more logistical tasks to local CS staff or making one staff member responsible for coordinating
logistical support, could alleviate some of the administrative tasks associated with planning and
supporting such delegations.

CS China underreports its major events. CS China is substantially underreporting its events
and delegations in CS’ eMenu. Currently, it is not reporting any of its VIP delegations in eMenu
and does not appear to be regularly updating its event and trade mission statistics. CS China’s
eMenu records as of October 2005 included only 44 of the 219 events (20 percent) on its 2005
internal calendar, and it reported only 11 of the more than 50 trade missions it hosted in 2005.
CS Beijing alone hosted approximately 41 events in the 3-month period from September to
November 2005, including such time-consuming events as the trade delegation led by the
governor of California, the Beijing international hardware show, the Deputy Secretary of
Commerce’s visit, and the OIG inspection.

In order for CS management to effectively gauge CS China’s visitor workload, the post should
report all events. Because eMenu is CS’ primary tool for planning future budgets and resource
allocations, CS China would benefit by regularly updating its eMenu records with a current
listing of visitors, delegations, missions, and other official events. Such reporting would allow
CS management to better understand and quantify the tremendous amount of time and resources
that CS China devotes to hosting official visitors and major events.

CS is not collecting all costs for some certified trade missions. CS China reports that state
trade missions and state gubernatorial visits require substantial CS assistance and support but not
all costs are reimbursed by all delegations. Several officers noted that some state trade missions



                                                63
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006

pay for traditional CS products and services as part of a certified trade mission, but other state
delegations expect CS China to provide its staff services at no cost. According to CS’ product
and service standard, there is no cost to become a certified trade mission but the group is
expected to cover services offered by the post on a cost-recovery basis. However, it appears CS
has not identified all costs associated with these events, particularly the cost of CS’ staff time.
Preparing for major state trade missions and gubernatorial delegations requires a large amount of
resources dedicated to preparation and logistics for these missions, CS should identify and
recover all the costs it incurs in supporting certified trade missions.

Recommendations:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Evaluate CS’ current coordination process to provide logistical support for official
       visitors and ensure the most efficient use of resources.
       Develop a process to identify and recover all costs incurred, direct and indirect, in
       supporting all certified trade missions.




In its response to our draft report, CS management agreed that the large number of official
visitors to China is one of the heaviest burdens that CS China faces as CS’ highest-profile post.
ITA further acknowledged that the constant demand for post’s attention and the many visiting
delegations require accommodation regardless of the post’s other obligations, as recognized in
our report. While ITA agreed with our recommendation to evaluate its current logistical support
process, CS believes that improvements may be achieved through better internal coordination
and assignment of duties and the post will continue to consider making such changes. ITA
indicated that this matter is best left to the determination of the SCO and his staff and stated that
the post has had remarkable success in satisfying the requirements of its heavy visitor workload.
We agree that the post has achieved remarkable success but only to the extent that the SCO and
his staff do not become overburdened and can still meet their core duties of serving the needs of
U.S. exporters. As such, we suggest that CS management, along with the SCO and his staff,
further consider our recommendation and ensure the most efficient use of resources to meet the
visitor workload as well as CS’ core objectives.
CS did not concur with our recommendation to ensure that CS China reports all its trade events
and trade missions in eMenu, stating that the additional, extensive reporting recommended in our
report represents a considerable expenditure of record-keeping time that is in short supply at
post. CS further stated that CS China has an established process for obtaining approval in
eMenu for its trade missions and events, develops event-specific budgets in eMenu, and
continues to work closely with the Global Trade Programs unit in supporting certified trade fairs.
While CS China has an internal calendar to track these events, it is in CS China’s best interest to
also record the large number of visitors and events in eMenu, CS’ primary reporting tool, so CS
management at headquarters is provided with an accurate reflection of the demands placed on CS
China as it reviews the post’s workload for future staffing and planning needs. However, given


                                                 64
U.S. Department of Commerce                                                Final Report IPE-17546
Office of Inspector General                                                           March 2006

that CS is, at a minimum, recording this information internally and seeking appropriate
authorization in eMenu, we recognize CS’ concern regarding scare resources and thus have
removed this recommendation from our report.

ITA’s response to our recommendation that CS develop a process to identify and recover all
costs incurred, direct and indirect, in supporting all certified trade missions, states that in
September 2005 CS’ Office of Planning released a cost-recovery template describing the
components of a strategy to systematically identify all costs associated with a post’s support of
certified trade missions and other trade events. ITA reports that CS China has implemented this
scheme. We would like to get additional information on CS China’s implementation of full cost
recovery in its action plan.




                                               65
U.S. Department of Commerce                        Final Report IPE-17546
Office of Inspector General                                   March 2006




                        PAGE INTENTIONALLY BLANK




                                  66
U.S. Department of Commerce                                                           Final Report IPE-17546
Office of Inspector General                                                                      March 2006


VIII. CS China is Not Using the Established Process to Hire Temporary Workers

CS China, particularly in Beijing and Guangzhou, frequently uses temporary workers to help
with the post’s special events, such as single company promotions and trade delegations. These
workers typically work for a short period of time—a few days to a few weeks—and perform
such tasks as recruiting attendees, issuing invitations, setting up appointments, arranging
receptions, and managing RSVP lists. In some cases, temporary workers are used to update CS’
databases and assist permanent staff with general administrative support, such as answering
phones, making copies, and maintaining files.

Certainly a post as busy as CS China will occasionally need additional help to meet deadlines
and ensure the success of its events. But the process being used to employ temporary workers is
problematic because proper security and human resources procedures are not always being
followed. In our discussions with the security, administrative, and/or human resources officers
in Beijing, Shanghai, and Guangzhou, they expressed concern about CS hiring temporary
workers outside the established hiring process.

Current hiring practices circumvent security and human resource controls. CS offices in
China use a variety of means to obtain temporary help. Currently, CS Beijing uses the AmCham
to hire temporary workers. There is no memorandum of understanding between CS Beijing and
AmCham, rather concept papers and letters were exchanged when the arrangement was defined
in 2003. Under the arrangement, CS recommends a temporary worker and AmCham hires the
person and pays taxes to the local tax bureau. AmCham is paid a 10 percent fee (calculated on
the worker’s salary plus taxes) and CS is responsible for the quality of the work produced by the
temporary worker. CS China hired 19 temporary workers through the AmCham arrangement
between November 19, 2003, and September 30, 2005. Of the 19 temporary workers hired, only
two had clearance from the Regional Security Officer (RSO) to work in the CS office.60 After
OIG’s inquiry, the RSO checked the remaining names and in February 2006, the RSO informed
us that they had all been cleared, albeit after the fact.

Another concern lies in the fact that CS Beijing’s temporary workers are acting very much like
CS employees. CS Beijing calls them contractors and insists that AmCham employs them.
However, CS provides the temporary workers with instructions on how the work is to be done,
the supplies and equipment to perform the work, and in most cases, office space within CS’
facility. While AmCham hires and pays the temporary workers, it does not supervise or oversee
their work. If a temporary worker should be injured while working in CS offices, AmCham
believes it would be responsible for paying compensation, but without a contract clearly
delineating responsibility between CS and AmCham, the liability for an injured temporary
worker is not clear.61



60
   One temporary worker did not enter the CS offices and instead worked out of his home, so RSO clearance was not
needed. We could not find any RSO clearance documentation for the 16 other temporary workers.
61
   CS Beijing’s temporary workers are not covered under the U.S. government’s workers’ compensation program
because they were hired outside the established hiring process.



                                                       67
U.S. Department of Commerce                                                                   Final Report IPE-17546
Office of Inspector General                                                                              March 2006

CS Guangzhou hires temporary workers directly and pays them through the petty cash fund.
Between August 2004 and August 2005, CS Guangzhou hired 12 temporary workers in this
manner. While the petty cash records do not always clearly describe where the temporary
workers actually performed their assigned duties, we were able to discern that many of them
worked in the CS offices (versus at an off-site trade show, for example). No RSO clearance was
obtained for any of the temporary workers. Similar to CS Beijing, CS Guangzhou’s practice of
hiring temporary workers does not mitigate any of the potential liability issues. These workers
are afforded no protections and employment taxes are not remitted to the local tax bureau. CS
Shanghai has been forbidden by its consulate to hire temporary workers outside the consulate’s
established hiring process and has not done so since October 2003.

CS should use the PSA-Temporary hiring authority. The State Department has an
established hiring process that takes into account all host country and U.S. government
employment requirements. For example, in China, the embassy and its consulates must hire all
local staff through the Ministry of Foreign Affairs’ Diplomatic Security Bureau (DSB), which
the established hiring process takes into account. CS needs to use the established process,
specifically the Personal Services Agreement (PSA)-Temporary hiring authority, to hire all
temporary workers. The PSA-Temporary hiring authority allows posts to employ individuals for
a brief period in a manner that replicates the simplicity of a purchase order, yet documents the
true employer-employee relationship.

Under PSA-Temporary hiring authority, CS will have to classify positions using the FSN
classification system, issue a vacancy announcement, make a selection, and obtain RSO
clearance for the selected employees.62 However, from that point on, employees from this pool
of pre-cleared temporary workers would be paid only “when actually employed” and for no more
than 30 workdays in a fiscal year.63 PSA-Temporary employees are not eligible for leave, health
insurance, severance pay, retirement, premium pay for working on a U.S. holiday, FSN
allowances, or any other non-cash benefits. However, PSA-Temporary employees are eligible
for federal workers’ compensation benefits in the event of a job-related death or injury. And, as
with other local-hire employees, the U.S. government withholds taxes, pays required social
security insurance, and reports wages to the host government. Additionally, PSA-Temporary
authority can be used to hire on an emergency basis for periods of 21 consecutive days or less
without a formal vacancy announcement, which could be particularly helpful to CS China if an
unforeseen need arises or if the pool of pre-cleared employees were exhausted.

We recognize that using the PSA-Temporary hiring authority will require some initial time and
effort to set up, which is why CS has avoided using it in the past. But, once the initial work is
completed, it will afford CS a group of cleared temporary workers that can quickly be called
upon to respond when CS needs extra help. Additionally, using PSA-Temporary authority will


62
   Several positions that CS might want to utilize are pre-classified, such as clerk, translator, and receptionist. If the
work to be done by the temporary workers fits into one of these positions, then CS can be saved the step of
classifying the position.
63
   Nearly all temporary workers employed by the various CS offices worked less than 30 days total, with the
exception of the one long-term temporary worker in Shanghai, so limiting each worker to 30 days in a fiscal year
should not pose a problem.



                                                            68
U.S. Department of Commerce                                               Final Report IPE-17546
Office of Inspector General                                                          March 2006

ensure CS China is in compliance with all security and human resources requirements and
restrictions, which will better protect both the post and the workers themselves.

Recommendation:
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:
       Ensure that CS Beijing, Shanghai, and Guangzhou work with their respective human
       resources offices to set up a cleared PSA-Temporary workforce available as needed to
       meet CS China’s need for temporary help with events and other short-term needs. CS
       China offices also should take advantage of the emergency PSA-Temporary authority to
       hire for periods of 21-days or less without a formal vacancy announcement when
       appropriate.




In responding to our draft report, the Deputy Under Secretary for International Trade
acknowledged the merit of the above recommendation and stated that CS will seek its
implementation. In its action plan, we would appreciate receiving an update on the status of the
post’s progress in setting up a cleared PSA-Temporary workforce.




                                               69
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 70
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006


IX.    Post Financial and Administrative Operations Are Generally Well Managed but
       Could Be Improved

CS China has effectively managed most of its financial and administrative operations, but there
are several areas where management and oversight should be improved. The post is doing a
good job of managing its budget and tracking obligations and liquidations in eMenu. It is also
properly monitoring its use of the State Department-provided International Cooperative
Administrative Support Services (ICASS), using representation funds and purchase cards
appropriately, and ensuring that CS vehicles are only used for official CS business. The post
also hired an administrative manager in Beijing in July 2005 who is improving coordination and
management of CS China’s financial activities. As previously recommended in the CS’ January
2003 Management and Program review (MPR) report, we found that the new administrative
manager is taking a stronger oversight role in managing the administrative operations of the
constituent posts. Whereas previous oversight of the constituent posts appeared limited to
telephone and e-mails between the posts and CS Beijing, at the time of our fieldwork, the new
administrative manager had visited or had plans to visit each of the constituent posts to analyze
each post’s business processes and establish standardized systems for processing and recording
financial data across the five CS China offices. The administrative manager is working closely
with CS China’s seven FSNs who are responsible for the post’s financial transactions and assets.
The financial and administrative FSN staff members are experienced, conscientious, and have
done a good job of keeping up with the increasing workload.

Despite having generally sound financial and administrative operations, we did find that some
issues warrant review and action. For example, procedures for petty cash and collections are not
always followed, and CS officers do not properly authorize all critical financial and
administrative documents. We also found that the post’s inventory records were not adequately
managed and reconciled and the commercial libraries in Shanghai and Guangzhou are not being
fully utilized.

We also performed a limited financial and administrative review of the MAC and IA offices
collocated in the TFO in Beijing. Based on a restricted sample, we found petty cash was
appropriately reconciled and documentation was adequate and properly approved for purchase
requests, travel orders and vouchers, and vehicle logs. It also appeared that internal controls and
financial management practices were adequate. Finally, we reviewed the physical security of CS
China offices and found no security vulnerabilities. The Regional Security Officer (RSO) in
Beijing confirmed that four of the five CS offices in China meet the physical security standards
set by the Overseas Security Policy Board. Security upgrades to the Shanghai office were
underway as part of an office renovation at the time of our visit in September 2005. The RSO in
Shanghai was monitoring the project and assured us that the office would meet all physical
security requirements when the construction is completed.

A.     Procedures for petty cash and collections are not followed

CS Beijing, CS Shanghai, and CS Guangzhou each have petty cash funds for approved payments
not exceeding $500. The use of the funds must be pre-authorized and are available to pay



                                                71
U.S. Department of Commerce                                                   Final Report IPE-17546
Office of Inspector General                                                              March 2006

vendors, reimburse employees for local transportation, or advance funds to employees for small
purchases. CS Chengdu and CS Shenyang do not have petty cash funds because their offices are
collocated in consulates and can utilize the consulate’s cashier for petty cash payment.

Our unannounced petty cash verifications in the CS offices in Beijing, Shanghai, and Guangzhou
found properly supported cash on hand and approved expenditure receipts. However, we found
that CS officers do not perform unannounced verifications at least once a month as required by
the CS Operations Manual. In CS Beijing, the administrative manager, who is not a CS officer,
routinely performs these verifications. By contrast, in CS Shanghai, the last unannounced
verification documented by an officer was in April 2003. In CS Guangzhou, the PCO performed
unannounced verifications in April, June, and August 2005, an improvement over the previous
PCO, who only performed one in May 2003, during his two-year tenure that started in July 2002
and ran to September 2004. To adequately safeguard the cash assets and ensure appropriate
internal controls, the authorized officers should perform and properly document these periodic
reviews.

We also followed up on the MPR report’s finding that there were multiple petty cash
irregularities in Guangzhou. The MPR team found that there were inadequately documented
purchases, purchases were split to bypass the $500 purchase threshold, receipts were not
itemized or verifiable, and an individual was “hired” inappropriately and paid through the petty
cash fund. We only found the last practice, using the petty cash fund to pay for employees hired
outside the established consulate process, to be a continuing problem. This problem is discussed
in more detail in chapter VIII of this report.

CS China also does not follow the CS Operations Manual procedures for collections, which
requires the post to maintain a written log of daily cash collections, issue pre-serialized receipts
to the payee, endorse checks received, send collections to the ITA lockbox in the United States,
reconcile records once a month, and consult any local post collection policies and procedures
specific to its operations. CS China does not maintain written daily collection logs because its
computer system records each collection as it generates a receipt for the client. However the
system does not automatically generate a list of all collections, making reconciliation difficult.
CS China should be reconciling to verify that all collections have been properly recorded and
deposited within the appropriate timeframes. The post should also ensure these collection and
reconciliation duties are separated and performed by different individuals. We found that, in
some cases, the employees who record cash collections also deposit the funds at the embassy or
consulate and reconcile the reports. The post should work to improve internal controls over its
collections by having different employees record and then reconcile collections.

As first reported in the 2003 MPR report, CS China deposits cash and check payments with the
embassy or consulate cashier ostensibly because local currency cash and checks cannot be
converted into U.S. dollars to send to ITA. However, CS China currently only accepts checks
from U.S. banks and payable in U.S. dollars, so it should be able to send those checks to the
lockbox. The MPR report stated that the MPR team would follow up to consider whether CS
China is exempt from processing collections through the lockbox system. However, we were
unable to determine what, if anything, had been decided on this point. The post’s administrative
manager and FSN staff stated that cash collections must be deposited through the embassy or



                                                 72
U.S. Department of Commerce                                                Final Report IPE-17546
Office of Inspector General                                                           March 2006

consulate and that CS headquarters instructed them to also deposit the few U.S. dollar checks
received each year with the embassy or consulate cashier. However, since CS has to pay an
ICASS charge for using the cashier’s services, CS China should either follow the CS Operations
Manual or obtain written policies from the Embassy Management Section on local policies and
guidance for collections to support why it cannot send currency to ITA’s lockbox. CS China
should also endorse its checks for deposit upon receipt to safeguard them from unauthorized use
or misappropriation.

B.     Officers should sign and date critical documents, customer agreements, time and
       attendance, and performance evaluations

We reviewed CS China’s financial and administrative documents and found that the majority
were properly approved. However, our review also identified several critical financial and
administrative documents, such as customer participation agreements, employee time and
attendance and personnel records, and procurement documents that were not authorized or dated.
For example, we found participation agreements without an approving CS officer signature and
others without the customer’s signature. The participation agreement between CS and the
customer documents what services CS will provide and records the amount due. Without
documented approval, CS and the customer cannot ensure that appropriate fees and services are
properly collected and recorded or that funds are safeguarded against loss or misappropriation.

We also found that some of CS China’s time and attendance records were not properly approved
and adequately documented. Several employees’ time and attendance certifications and leave
requests were not approved or dated, and compensatory time that was recorded did not have a
corresponding authorization form. In particular, at CS Shanghai employees complete leave
forms, but they do not prepare time and attendance certifications documenting the hours worked
or leave taken. The CS Operations Manual prescribes that time and attendance forms and
supporting documents must be maintained on every employee along with the supervisor’s
signature and that an authorized approving official must sign requests for leave.

Our review of the CS China employees’ official personnel files identified many performance
evaluations that were not signed by the reviewing officials and many performance plans and
performance evaluations that were not dated by the employees, raters, or reviewers. Based on
our review of the files, we believe that all employees have a current performance plan on file and
have been rated within the last year, but without proper signatures and dates, CS cannot ensure
that employees’ performance plans and evaluations are properly approved and completed in a
timely manner, or that appropriate performance evaluation discussions have been held with all
employees.

Finally, our review of the post’s purchase orders found that CS China is generally following
appropriate guidelines for its procurement activities. However, we did note that CS China does
not date stamp invoices when they are received and in some instances did not document when
and if the purchased goods or services were received. These dates are necessary to calculate
interest in accordance with the Prompt Payment Act in case the government does not pay the
vendor within the statutory time period. CS China should always date stamp its invoices.




                                               73
U.S. Department of Commerce                                                            Final Report IPE-17546
Office of Inspector General                                                                       March 2006

C.      Inventory records need improvement and excess equipment should be surplused

Inventory records serve as a basis for accountability and support budget estimates for
replacement costs, but those in CS China were not complete, accurate, or timely reconciled.
According to the CS Operations Manual, property custodian responsibilities include initiating,
processing, and maintaining all required documentation, conducting a quarterly inventory and
resolving discrepancies, and submitting an SCO-certified inventory to the OIO inventory
manager each year.

None of the CS China post offices conduct quarterly inventories. Instead, when ITA sends an
annual inventory listing, the post completes a physical inventory, notes any discrepancies with
ITA’s inventory list, and certifies the inventory. Yet, we still found that CS Beijing, CS
Guangzhou, CS Chengdu, and CS Shenyang all have inventory problems. During our
inspection, we did a spot check of the inventory in each office and found that there were a
number of discrepancies between ITA’s inventory list (which should be mostly accurate because
the posts had certified them within the last year) and the actual physical inventory, including
items that had been disposed of or new acquisitions. CS Shanghai reported they did not perform
a physical inventory in FY 2005, but planned to do so following the completion of the planned
office renovation in early FY 2006. Thus, our spot check there revealed significant discrepancies
that hopefully were cleared up when CS Shanghai finally did its physical inventory.64 At all CS
China offices, we found items, including old computers and obsolete cell phones, which should
be disposed. These items could be sold, donated, or transferred through the embassy or
consulate’s General Services Office upon approval from OIO. CS China should get rid of excess
equipment still carried on the inventory and conduct physical inventories as required.

D.      The commercial libraries in Shanghai and Guangzhou are not being fully utilized

The commercial libraries in CS Shanghai and CS Guangzhou are not being fully utilized and
informational materials in CS Chengdu and CS Shenyang are not easily accessible.65 CS
Shanghai estimates (it maintains no visitor logs) that about two to three people outside CS use
the library per week. One potential user noted the library has great resources, but attributed low
usage of the library to Shanghai traffic congestion, which makes the library more difficult to get
to, and information being readily available on ITA’s website. CS Guangzhou’s library also is
infrequently used. The PCO estimates that the commercial assistant only spends between 20
percent to 30 percent of her time as the part-time librarian. CS should evaluate the costs and
benefits of maintaining the libraries in Shanghai and Guangzhou. We note that in responding to
our inspection report on CS India66 where a similar issue was raised, CS management stated that
it would purchase subscriptions to online services and databases, as well as evaluate options for
“virtual” libraries. That could certainly be an option in both Shanghai and Guangzhou.



64
   We are unable to independently verify whether the inventory is accurate without visiting the office again.
65
   CS Beijing recently closed its library when office space became an issue. The post is now using the space for
interns.
66
   International Trade Administration, Commercial Service India: Challenges Remain for Management of a Large
and Economically Diverse Post, IPE-16808, September 2004.



                                                       74
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

We also noted that both CS Chengdu and CS Shenyang maintain large collections of reference
materials, which would be better accessible if moved to the public libraries maintained in these
consulates by the Public Affairs department. Moving the reference materials would also free up
office space for CS staff. Currently office space in both locations is extremely limited and there
is no option for growth because they are located inside consulates filled to capacity.

Recommendations
We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:

       Require CS China to follow petty cash and collection procedures prescribed in the CS
       Operations Manual or obtain written collection policies from the Embassy Management
       Section where local currency laws do not permit it to send currency to ITA’s lockbox.
       Ensure officers sign and date all documents in accordance with CS policies and
       procedures.
       Ensure that CS China updates its inventory listings and performs physical inventories as
       required by the CS Operations Manual. In addition, CS China should request approval
       from CS headquarters to surplus obsolete and excess inventory items.
       Evaluate the costs and benefits of maintaining commercial libraries in CS Shanghai and
       CS Guangzhou, and if the costs are not justified close them. CS headquarters should
       document its decision and justification. In addition, CS should consolidate the reference
       materials from CS Chengdu and CS Shenyang in the existing Public Affairs libraries.




ITA’s response concurred with most of our recommendations to improve CS China’s financial
and administrative operations. We welcome ITA’s efforts to ensure that CS China complies with
all petty cash and inventory procedures, as outlined in the CS Operations Manual, and that CS
officers sign and date all official documents, as required by CS policies and procedures. CS will
instruct the post to perform required inventories, and CS headquarters has authorized the post’s
requests to dispose of surplus inventory and will encourage prompt disposal of surplus items.
Finally, we also welcome ITA’s commitment to conduct a formal evaluation of the costs and
benefits of maintaining CS’ commercial libraries in Guangzhou and Shanghai, to consider
establishment of an online library at both those posts, and to move excess reference materials
stored in CS’ Chengdu and Shenyang offices to the consulates’ existing public libraries. CS did
not agree to move all of its reference materials in CS Chengdu and CS Shenyang to State’s
Public Affairs department. The significant position of those materials that is intended for use by
the FSN staff in those offices will not be moved.




                                                75
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 76
U.S. Department of Commerce                                                  Final Report IPE-17546
Office of Inspector General                                                             March 2006

                          SUMMARY OF RECOMMENDATIONS

We recommend that the Secretary of Commerce take the following actions:


   1. Develop appropriate management processes and lines of authority to ensure that
      Commerce organizations cooperate effectively in meeting Commerce’s many challenges
      in China (see page 13).
   2. Clarify the roles and responsibilities of the special counsel vis-à-vis those of the SCO
      position before appointing a new special counsel to China or any other post (see page 13).
   3. Ensure that Commerce bureaus with positions in China develop an effective human
      resource strategy that forecasts future staffing needs and provides a continuous supply of
      qualified officers with adequate China-specific expertise (see page 13).

We recommend that the Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service take the following actions to improve CS China operations:


   4. Immediately appoint a qualified officer to fill the PCO position in Chengdu and in the
       meantime, consider the use of a temporary duty officer to cover the post, preferably
       someone who has served in China previously. CS Beijing should also provide closer
       management oversight and support of CS Chengdu until a new PCO arrives (see
       page 13).
   5. Take steps to ensure that staffing gaps in Chengdu and Shenyang are kept to a minimum,
       using inducements and directed assignments as necessary to fill these positions (see
       page 13).
   6. Complete the roll-out of the American Trading Centers in the Beijing, Chengdu,
       Shenyang, and Guangzhou consular districts, following the model of the successful ATC
       roll-out in the Shanghai consular district (see page 23).
   7. Require CS officers and commercial specialists to closely monitor all services performed
       by CCPIT as part of the ATC initiative (see page 23).
   8. Ensure that all U.S. companies using ATC services have realistic expectations of what
       the service can achieve and are given the opportunity to use CS’ export counseling
       services (see page 23).
   9. Develop Chinese-language marketing materials for the ATC program (see page 23).
   10. Develop clear procedures to process refunds for unsatisfied ATC customers and recover
       funds from CCPIT for any refunds issued (see page 23).
   11. Ensure that CS personnel fully understand the respective roles and responsibilities of the
       ATC trade show staff, the commercial specialists, and the officers in supporting CS
       China’s trade show efforts. CS management in each office with trade show staff should
       ensure that all personnel are fulfilling their responsibilities to support trade show efforts
       (see page 23).




                                                77
U.S. Department of Commerce                                                 Final Report IPE-17546
Office of Inspector General                                                            March 2006

   12. Assess the need for the quarterly reporting requirement for the Shanghai commercial
       center’s partners or work with the partners to decide on a reporting arrangement that
       would enhance cooperation (see page 31).
   13. Maximize the value of the commercial center in Shanghai by improving communications
       and collaboration between CS and the partners, and promoting and marketing the services
       of the commercial center in both the U.S. and China (see page 31).
   14. Evaluate the future direction of the commercial center program and take appropriate
       action based on the results (see page 31).
   15. Revise the CS Operations Manual to include clear and precise requirements for written
       documentation and verification of each element of an export success, including written
       verification from the client confirming CS assistance, and the reported benefit to the
       exporter, the date of the success, and any reported dollar value, and inform all staff of the
       changes (see page 37).
   16. Enhance the first- and second-level review process for export successes to include
       specific requirements, such as frequency, sample size, and follow-up guidance, to ensure
       a reliable verification, quality control, and oversight program (see page 37).
   17. Require each individual and office receiving credit for an export success to maintain
       documentation that supports the claim of significant value-added assistance (see page
       37).
   18. Revise the CS Operations Manual to ensure it specifically identifies scenarios under
       which visa assistance qualifies as an export success, and when it does not (see page 37).
   19. Remove the invalid CS China export successes from CS’ database (see page 37).
   20. Evaluate the reasons why some CS China services are not meeting the needs of some
       clients and address them (see page 49).
   21. Improve CS officers’ review process for market research to ensure all reports meet ITA’s
       recommended guidelines (see page 49).
   22. Evaluate CS China’s current language designations to determine their adequacy (see page
       55).
   23. Provide extended Mandarin language training to CS officers prior to their arrival at the
       post, and provide time for in-country language training, as needed (see page 55).
   24. Provide periodic industry team training to ensure it effectively leverages staff resources
       (see page 55).
   25. Provide regularly scheduled English writing, industry and U.S. business practice training
       to the FSN staff to improve customer service (see page 55).
   26. Ensure financial resources will be available to fund the staff position upgrades indicated
       by CS China’s CAJE results (see page 55).
   27. Address the officer vacancy in CS Guangzhou and determine the future status of the
       position (see page 55).
   28. Develop a regular standards and IPR training program in cooperation with NIST and
       USPTO and ensure that CS officers and other staff attend the training (see page 55).
   29. Evaluate CS’ current coordination process to provide logistical support for official
       visitors and ensure the most efficient use of resources (see page 63).



                                                78
U.S. Department of Commerce                                               Final Report IPE-17546
Office of Inspector General                                                          March 2006

   30. Develop a process to identify and recover all costs incurred, direct and indirect, in
       supporting all certified trade missions (see page 63).
   31. Ensure that CS Beijing, Shanghai, and Guangzhou work with their respective human
       resources offices to set up a cleared PSA-Temporary workforce available as needed to
       meet CS China’s need for temporary help with events and other short-term needs. CS
       China offices also should take advantage of the emergency PSA-Temporary authority to
       hire for periods of 21-days or less without a formal vacancy announcement when
       appropriate (see page 67).
   32. Require CS China to follow petty cash and collection procedures prescribed in the CS
       Operations Manual or obtain written collection policies from the Embassy Management
       Section where local currency laws do not permit it to send currency to ITA’s lockbox
       (see page 71).
   33. Ensure officers sign and date all documents in accordance with CS policies and
       procedures (see page 71).
   34. Ensure that CS China updates its inventory listings and performs physical inventories as
       required by the CS Operations Manual. In addition, CS China should request approval
       from CS headquarters to surplus obsolete and excess inventory items (see page 71).
   35. Evaluate the costs and benefits of maintaining commercial libraries in CS Shanghai and
       CS Guangzhou, and if the costs are not justified close them. CS headquarters should
       document its decision and justification. In addition, CS should consolidate the reference
       materials from CS Chengdu and CS Shenyang in the existing Public Affairs libraries (see
       page 71).




                                              79
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 80
U.S. Department of Commerce                                              Final Report IPE-17546
Office of Inspector General                                                         March 2006


                                     APPENDICES

                        Appendix A: Acronyms and Abbreviations

APEC         Asia-Pacific Economic Cooperative
AmCham       American Chamber of Commerce
AMT          Association for Manufacturing Technology
ATC          American Trading Center
BIS          Bureau of Industry and Security
CAJE         Computer-Aided Job Evaluation
CBIC         China Business Information Center
CCPIT        Chinese Council for the Promotion of International Trade
CG           Consul General
CMR          Customized Market Research
CRM          Customer Relationship Management
CS           U.S. & Foreign Commercial Service
DSB          Diplomatic Security Bureau
EAC          Export Assistance Center (same as USEAC)
EAP          East Asia and Pacific
Econ         State Department Economic Affairs Section
ES           Export Success
ExIm         Export-Import Bank of the United States
FAM          Foreign Affairs Manual
FSN          Foreign Service National
GDP          Gross Domestic Product
GKS          Gold Key Serivce
HR           Human Resources
IA           Import Administration
IBP          International Buyers Program
ICASS        International Cooperative Administrative Support Services
ICP          International Company Profile
IPR          Intellectual Property Rights
IPS          International Partner Search
ITA          International Trade Administration
JCCT         U.S. China Joint Commission on Commerce and Trade
M&S          Manufacturing and Services
MAC          Market Access and Compliance
MPR          Management Performance Review
MOU          Memorandum of Understanding
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General
OIO          Office of International Operations (part of CS)
OMB          Office of Management and Budget
PCO          Principal Commercial Officer
PKS          Platinum Key Service



                                           A-1
U.S. Department of Commerce                                Final Report IPE-17546
Office of Inspector General                                           March 2006


PMMI         Packaging Machinery Manufacturers Institute
PSA          Personnel Services Agreement
RSO          Regional Security Officer
SCO          Senior Commercial Officer
SME          Small to Medium sized Enterprise
TCC          Trade Compliance Center
TDA          Trade Development Agency
TFO          Trade Facilitation Office
USEAC        U.S. Export Assistance Center
USPTO        U.S. Patent and Trademark Office
USTR         United States Trade Representative
WTO          World Trade Organization




                                          A-2
U.S. Department of Commerce                                        Final Report IPE-17546
Office of Inspector General                                                   March 2006


                    Appendix B: Secretary’s Response to Draft Report




                                          B-1
U.S. Department of Commerce                    Final Report IPE-17546
Office of Inspector General                               March 2006




                    PAGE INTENTIONALLY BLANK




                                B-2
U.S. Department of Commerce                                        Final Report IPE-17546
Office of Inspector General                                                   March 2006


                      Appendix C: ITA’s Response to Draft Report




                                         C-1
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-2
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-3
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-4
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-5
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-6
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-7
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-8
U.S. Department of Commerce         Final Report IPE-17546
Office of Inspector General                    March 2006




                              C-9
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-10
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-11
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-12
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-13
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-14
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-15
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-16
U.S. Department of Commerce          Final Report IPE-17546
Office of Inspector General                     March 2006




                              C-17
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                C-18
U.S. Department of Commerce                                    Final Report IPE-17546
Office of Inspector General                                               March 2006


                    Appendix D: USPTO’s Response to Draft Report




                                        D-1
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 D-2
U.S. Department of Commerce                                 Final Report IPE-17546
Office of Inspector General                                            March 2006


Appendix E: Briefings for Commerce’s Travelers to China (FOR OFFICIAL USE ONLY)
                           To be provided under separate cover




                                      E-1
U.S. Department of Commerce                      Final Report IPE-17546
Office of Inspector General                                 March 2006




                      PAGE INTENTIONALLY BLANK




                                 E-2
U.S. Department of Commerce                                     Final Report IPE-17546
Office of Inspector General                                                March 2006


   Appendix F: Clearance Process for Commerce’s Staff Assigned to China (SECRET/
                    NOFORN) To be provided under separate cover




                                        F-1
